<html>
<title> - COMMITTEE FUNDING FOR THE 113TH CONGRESS (DAY 1)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            COMMITTEE FUNDING FOR THE 113TH CONGRESS (DAY 1)

=======================================================================



                                HEARING

                               before the

                           COMMITTEE ON HOUSE

                             ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, MARCH 5, 2013

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
80-285                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD NUGENT, Florida
                                 ------                                

                           Professional Staff

                      Kelly Craven, Staff Director
                  Jamie Fleet, Minority Staff Director


            COMMITTEE FUNDING FOR THE 113TH CONGRESS (DAY 1)

                              ----------                              


                         TUESDAY, MARCH 5, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:44 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Gingrey, Schock, 
Nugent, Brady, and Vargas.
    Staff Present: Kelley Craven, Staff Director; Phil Kiko, 
General Counsel; Peter Schalestock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Bob Sensenbrenner, Elections Counsel; 
George Hadjiski, Director of Member Services; Richard Cappetto, 
Professional Staff; Jamie Fleet, Minority Staff Director; Matt 
Pinkus, Senior Policy Analyst; Matt Defreitas, Minority 
Professional Staff; Thomas Hicks, Minority Elections Counsel; 
Greg Abbott, Minority Professional Staff and Eddie Flaherty, 
Minority Professional Staff.
    The Chairman. Good morning everyone, I will now call to 
order the committee on House Administration for today's hearing 
on the Committee Funding for 113th Congress. The hearing record 
remained open for 5 legislative days so that members might 
submit any materials that they wish to have included. And a 
quorum is present so we can proceed.
    I want to thank everyone for being here this morning, and 
this process, while a bit lengthy--it is going to expand over 2 
days as we hear from all the committee chairmen--is very 
necessary, I think, to our deliberations on committee funding 
levels. And certainly even more important as we think about 
what is happening with the cuts with sequestration.
    I think it is important as we listen to everybody's 
testimony today, and certainly the committee understands the 
importance of each of the committee's work, how incredibly 
important they are, what a critical component they are really 
of the vital responsibility that we have in the Congress to 
oversee our Federal agencies, and of course, we have limited 
resources to do that. So we have a task that demands efficiency 
as well.
    Of course, the legislative branch resources that we have 
pales in comparison to the executive branch; we have about a 
trillion dollars less. And yet our responsibility is to oversee 
these agencies on behalf of the American taxpayers. Our job is 
to ensure that the hard-earned money taxpayers provide for 
government is spent effectively, efficiently and as 
transparently as possible. I think that is what makes our 
process that we undertake today and tomorrow--over the next 2 
days, we are going to hear from every House committee about how 
they plan to allocate and prioritize their resources and how 
they are going to become even more efficient; ``doing more with 
less'' is sort of the buzz phrase here.
    As we all know, last Friday, OMB issued its sequestration 
order detailing the automatic spending cuts, and although the 
cuts are going to mean a little bit different to every branch, 
every agency, every employee, it will mean something to every 
one, including every Member of Congress. And certainly for this 
committee, we all understand the reality of these reductions on 
committee operations. Of course, as I mentioned, every Member 
of Congress is also looking at an 8.2 percent cut to our own 
MRAs, so we have to certainly lead by example and to control 
our government spending.
    In addition to hearing from every committee about how they 
are going to implement these cuts, we certainly are looking 
forward to hearing about how they plan to manage their 
resources, adhering to the two-thirds/one-third allocation. As 
some of you might recall, the one-third allocation was 
championed by our ranking member at that time, House 
Administration Ranking Member Bill Thomas, in the 103rd 
Congress, when the Republicans were in the minority, so I think 
this is an important--it has been a tradition for quite a few 
Congresses.
    And I am pleased to report that for the last 16 years, the 
one-third rule has been supported by not just the majority but 
the minority party, whether it was Republicans or Democrats, 
and we will be looking forward to this bipartisan agreement, I 
think, for many, many years to come. Again, I want to thank all 
the members for being here and the ranking members and the 
chairmen.
    And we are going to begin with House Rules, and we 
certainly welcome Chairman Pete Sessions and Louise Slaughter, 
both of you do a great job, on Rules.
    I ask the official reporter to enter a page into the 
hearing record as we begin this section.
    The Chairman. The Committee on Rules has a very long 
history and the important job of presenting to the House the 
pieces of legislation for its consideration, its priority in 
the 113th Congress is to maintain its very high standard of 
establishing the parameters of floor consideration for the 
pieces of legislation we collectively consider and deliberate 
upon.
    So we welcome both the chairman and the ranking member, and 
we would open the floor to Chairman Sessions for his testimony 
to the committee, sir.

   STATEMENT OF THE HON. PETE SESSIONS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Sessions. Chairman Miller, thank you very much, both 
Louise Slaughter, former chairman of the Rules Committee and I 
wish to approach this committee very respectfully, not only to 
you, Chairman Miller, but also former Chairman Brady who 
allowed us to testify a few years ago about the needs of the 
Rules Committee.
    I might also with some great deal of respect acknowledge 
the gentleman Mr. Nugent, who serves on the Rules Committee, 
who and has a clear understanding of whatever we do. And I 
would hope in this committee's deliberations and review of the 
things which you are requesting would feel free to talk with 
Congressman Nugent, not only about the diligence by which we go 
about our work, but also I think the frugality that is involved 
with us effectively using the resources which you so graciously 
give to us.
    You know, as I come before you it kind of reminds me of an 
old saying, gosh, if I had known I was going to live that long, 
I would have taken better care of myself. I might say to you 
today that the Rules Committee I believe has done a very good 
job of taking care of itself before today, but once again, we 
show up with some needs that we have, not only to our mission 
statement but also what lies ahead.
    Certainly, the Rules Committee has been working with your 
staff to try and give you a clear and better understanding and 
us hearing from you about your ideas and needs about our 
service and what we do. First of all, let me say this, the 
things which we do are at the service for the entire House of 
Representatives. We serve people 24 hours a day. We have not 
only Web sites that need to be updated with legislation but 
ideas. Perhaps, maybe over a weekend, someone will decide that 
we are going to post a bill; we need to make sure that we are 
available with Twitter; all Web sites, we need to make sure 
that we are leading edge in what we do. We need to make sure 
that we are available to print out thousands of copies at the 
last minute. We need to make sure we are open and available as 
a service product to the House of Representatives.
    The down side to that is if we are not, it means it is not 
only the prestige of the House of Representatives but also can 
cost the entire body overtime, inefficiency and frustration. I 
don't need to remind you that a few years ago, when the 
official board, voting board went down, it caused great 
frustration. While I had no real part of that, I remember it 
well that the things which are inherent to the operation, the 
successful operation, of the House of Representatives must be 
done.
    So, with that said, both Mrs. Slaughter and I approach you 
respectfully today to help you understand several things. First 
of all, we do not have a travel budget. We do not have 
something that we can cut or manage on a moving-forward basis. 
We have by and large taken ourselves down to the bare bones.
    However, we have needs, needs that happen. Every couple of 
years, we burn through computers. We have new technology that 
we have to manage and make available. And we have needs of 
printed copies, doing things to where we reproduce things for 
the benefit of the majority and the minority on a timely manner 
to make sure that they are all available to people. We do not 
have at our pleasure four or five subcommittees, each with 
printers. We have one upstairs that produces what we need. And 
we need to be able to buy new equipment because we wear through 
what we have.
    What we do at the Rules Committee is a service to the House 
of Representatives, and we believe that our efficiency comes 
not just from our ability to get better every few years with 
technology, but we also believe that the service we provide is 
there on a 24-hour basis to make sure that the entire House of 
Representatives works well.
    Now the core functions of what we do are what we are 
talking about doing; we are not talking about going out and 
making any grand scheme or going out and creating something 
that would necessarily help save us millions of dollars later. 
What we are talking about is basic functions that need to be 
covered. And so, as a result of that, I would submit to this 
committee, we have already taken that cut, and that we believe 
that any review and analysis of that would say that if we did 
take a cut, we would be putting ourselves at risk for the 
entire House of Representatives, for others to be prepared and 
to move efficiently. And so we are asking, at least I am today, 
and I believe Mrs. Slaughter would be asking the same, to 
carefully review us and understand that a hit to our budget 
that the chairwoman has spoken of, that I in my office, 
personal office, will willingly accept but that this committee 
had prepared itself last term and done that. So we are asking a 
very careful, thorough review.
    And I appreciate the opportunity to be before you here 
today, thank you very much.
    [The statement of Mr. Sessions follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.001
    
    [GRAPHIC] [TIFF OMITTED] 80285A.002
    
    [GRAPHIC] [TIFF OMITTED] 80285A.003
    
    [GRAPHIC] [TIFF OMITTED] 80285A.004
    
    [GRAPHIC] [TIFF OMITTED] 80285A.005
    
    The Chairman. I thank the gentleman for the comments.
    The chair now recognizes the ranking member of the Rules 
Committee, Ms. Slaughter.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you, Mr. Chairman, and Ranking Member 
Brady, and all the other members of the committee. I am pleased 
to join with my new chairman, Pete Sessions, in presenting the 
Rules Committee budget request for 2013.
    I want to begin by saying that although Chairman Sessions 
and I have worked together for many years on the Rules 
Committee, this is our first appearance before you since he 
became chairman. And I want to express my appreciation to him 
for the warm collegiality he has shown to me and all members of 
the minority since he became chairman.
    Ours can be one of the most boisterous committees of the 
House, but we have a long tradition of working in a bipartisan 
fashion when it comes to the efficient operation and 
administration of our committee. I am grateful that Chairman 
Sessions has chosen to continue that tradition and especially 
that he plans to continue the policy of dedicating one-third of 
the committee's overall budget to the minority. I fully support 
our chairman's request to the House Administration Committee, 
and I, too, am glad Mr. Nugent is here, because I think he can 
certify us.
    Right, Mr. Nugent?
    Mr. Nugent. Absolutely.
    Ms. Slaughter. As the chairman said, we take very serously 
our responsibility to tighten our belts and to reduce costs in 
every way that we can. We have done our share over the last 2 
years. In fact, the Rules Committee achieved a 12.4 percent cut 
in our authorized level over the 112th Congress. We were able 
to make that cut in the last round, and we continue to be ready 
to do our share.
    But as the chairman stated, the Rules Committee is a unique 
institution in the House, founded in 1789; it has been 
important to the runnings of the House of Representatives ever 
since. We are small. We have a lean budget, but we are very 
efficient. The most important distinction is the fact that we 
do not control our own work flow or our schedule. Our agenda is 
set by the leadership, and we must be able to act at a moment's 
notice. We have markups almost every single week, sometimes 
more than one.
    We do not have the option of using many of the traditional 
tools for reducing committee costs. We cannot postpone our 
meetings to save money. We cannot combine our hearings to 
reduce duplication. When the agenda of the House calls for 
action, the Rules Committee must be available no matter the 
hour.
    Furthermore, delays at the Rules Committee have significant 
multiplier affects on the cost of operating the House. When we 
take longer to do our job, the House must remain in session, 
and that means all of the personnel, the police officers, the 
Chamber security, the clerks, the Official Reporters and the 
recording studio personnel must remain on duty and will often 
be earning overtime. Even short delays can cost the House tens 
of thousands of dollars.
    Finally, I appreciate my chairman's point that since our 
budget is small, the proposed cuts will have the largest effect 
on the minority, where smaller cuts can have a larger relative 
impact. If we must absorb the higher level of cuts under 
consideration, the minority will have to choose between 
essential administrative services and adequate staffing.
    Madam Chairwoman, we are very proud of our committee. We 
provide an essential and a cost-efficient service to the House, 
and we have a long tradition of accomplishing that task with 
bipartisan comity, no matter the intensity of our disagreement 
on the underlying policy issues. And therefore, I am pleased to 
support my chairman's request that the committee be funded at a 
level that will allow us to continue to provide that same kind 
of service to the House.
    Thank you.
    [The statement of Ms. Slaughter follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.006
    
    [GRAPHIC] [TIFF OMITTED] 80285A.007
    
    [GRAPHIC] [TIFF OMITTED] 80285A.008
    
    [GRAPHIC] [TIFF OMITTED] 80285A.009
    
    [GRAPHIC] [TIFF OMITTED] 80285A.010
    
    The Chairman. Thank you very much.
    I just have one question, I guess, in regards to 
technology, listening to you talk about all of the printing in 
particular that you have done. I have had the pleasure of 
testifying before the Rules Committee in the past, and I would 
just comment--I am sure everybody has--it is run so incredibly 
professionally on both sides, I think, very well, but there is 
a lot of paperwork that has to go through there, as you say, to 
keep the House running.
    Ms. Slaughter. Yes.
    The Chairman. Have you really explored, I am sure you have, 
the various kinds of technologies that might assist you with--
you buy a new printer--you mentioned the upstairs printer--
those kinds of things or if there is anything that our 
committee can help you with, duplicative kinds of things, that 
we may be able to resource you with as well, have you looked at 
those kinds of things?
    Mr. Sessions. In fact, I believe we have. In some 
conversations, I believe, that have taken place between our 
staffs, the Rules Committee began a discussion 3 or 4 years ago 
about how we were going to adapt ourselves to the needs of 
Members. For instance, iPads several years ago became more 
functional, and people came to us and said, your output doesn't 
allow me a chance to get it on my iPad. Well, we had to go back 
and figure out how to do that.
    Increasingly as the complexity of technology has changed, 
we have tried to do the same. Once again, our budgets and our 
limitations have been met very seriously internally as we have 
tried to adapt ourselves. Those of us that are on the 
Republican side might remember there was a vigorous debate when 
we reorganized about what is available through the Rules 
Committee to CRS, back and forth with OMB, and how we 
effectively work together. These have all been important 
debates we find ourselves trying to meet the minimum needs of 
Members. We are a supply-oriented body, and I think that Ms. 
Slaughter very effectively not only laid out how essential our 
services are but that we have people coming to us asking for 
more and more, and there is only so much we can do at one time.
    Now as it relates to the actual printing operations that we 
have, that is perhaps the most essential thing that I would lay 
before you today, not that we are a bare bones organization, 
not that we necessarily would be available, as Ms. Slaughter 
suggested, at a drop of a hat, at the whim of anyone who needs 
our services, but actually the production of what we do. And I 
believe I could successfully say to you today, every couple of 
years, we wear out our machines, and we need that ability to be 
able to stay leading edge with the essential services we 
provide, and then we are trying to get beyond that for 
technology.
    The Chairman. Okay.
    With that, I would recognize our ranking member, and I 
apologize for not recognizing him for his opening statement.
    Mr. Brady. You don't need to hear an opening statement from 
me. I am fine, Madam Chairman. Thank you.
    You know, about 12, 13 years ago, when I first got here, I 
really wanted to get on the Rules Committee. I tried for a 
couple of years, and boy, am I thankful Dick Gephardt didn't 
put me on it, because without question, you are the hardest-
working committee there is.
    You know, it is ironic that I have been here for a while, 
and I just asked my staff, where is the request? It is the 
first time we didn't get a request sheet. We are trying to keep 
a status quo and hopefully not a major cut sheet. But I will 
vote with Mr. Nugent to give you a percentage increase if you 
like; I don't have any problem with that.
    But I also hate to lead by example, Madam Chairman. I hate 
to lead by example. But it is what it is. We have the cuts. 
Everybody is taking them, our staffs, our committees.
    The only thing I would have and I would probably--the only 
real question I would have with a whole lot of these committees 
is, can you function with a cut? Are you able to get quality 
people to come in? Are you able to keep people that are quality 
people when you are cutting their salary, while I am sure that 
they have friends and people they associate with socially or 
whatever are making more money than they are making and, on 
your committee especially, aren't working the same hours? So 
that is the only issue and problem I have with all the 
committees that have come in front of us: Can you keep the 
staff that you have with them taking a furlough or a cut? Do 
you have the opportunity to even attract any other staff 
members that can do the work that needs to be done on these 
committees?
    Ms. Slaughter. We are very proud of our staff, Mr. Brady.
    I will tell you I think they are probably the hardest-
working people on the Hill, but they are also in demand in the 
City of Washington because of the skills they could bring to a 
better job with much higher pay.
    We have been very blessed so far because the people who 
work at the Rules Committee seem so dedicated to what they are 
doing. The hours that they keep, I think, would astonish a lot 
of people here. But I think we are going to see that, and I am 
greatly concerned about whether or not we are going to be able 
to keep really good people. We don't know yet. I hope so, 
because I have never worked with finer people on both sides in 
our committee. The skills that you have on the Rules Committee 
I think are very unique. They understand exactly how the House 
works and all legislation, and they have institutional memories 
that are unsurpassed. We really want to keep them, and it is a 
very big concern that with larger cuts, we will have to make 
changes in staffing, and that would really be a loss I think to 
the House.
    Mr. Brady. Thank you.
    That is all I have, Madam Chair.
    The Chairman. The chair recognizes the gentleman from 
Mississippi, Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    And thank each of you for the hard work that you do. I know 
that sometimes a thankless late-night job that you each have to 
do; you do it well, and I am very impressed with the staff on 
both sides and how you do that.
    At this point, are each minority, majority staff, are you 
fully staffed at this point?
    Mr. Sessions. We are.
    Ms. Slaughter. Yes.
    Mr. Sessions. And I believe Ms. Slaughter is.
    Ms. Slaughter. We had a part-time vacancy last year, but we 
are fully staffed.
    Mr. Sessions. But once again, with a moving forward 
viewpoint, it would cause us to necessarily make changes in 
staff or in some other area, and that is the reality of where 
we are.
    Ms. Slaughter. And that would be difficult because, 
frankly, I really do believe that our staff, because of fact 
that they are so accomplished at what they are doing, a loss of 
any one of them would cause us some serious problems.
    Mr. Harper. As you look at how to address the cuts that you 
may face, I am sure you will look at every other option first.
    Ms. Slaughter. Yes.
    Mr. Harper. Before that comes about. Is that what you are 
in the process of?
    Mr. Sessions. In fact, that is an insightful request and 
perhaps question to us. We believe very clearly, Mr. Harper, 
that a delay of things that we would take could at some point 
mean that our printer would be broken. And I think people learn 
around here, you just don't go get another new printer. And we 
would have to do that to operate day to day every day. And so 
we wear through and believe we have, through not just Ms. 
Slaughter's experience and staff experience, but our experience 
in understanding what is key and critical, and so there could 
be people laid off in order just to buy a printer to avoid 
costing more money later. Those are decisions that we are 
asking you to help us with also, and obviously, your answer 
will dictate that to us.
    And that is why we are trying to say, notwithstanding, I 
accept these on my personal side, I think we have done a good 
job, Ms. Slaughter, when she was the chairman of the committee, 
and Mr. Dreier, as he made choices. Now we are where we are. We 
believe in what you are doing, but we are trying to give you a 
hint into the decision making. You will be a part of that 
decision making by what you give us.
    Mr. Harper. Thanks to both of you.
    I yield back.
    The Chairman. I thank the gentleman.
    The chair recognizes Mr. Vargas from California for any 
question he may have.
    Mr. Vargas. Thank you very much, Madam Chair, and thank you 
for the opportunity to be here.
    My question was going to be just simply about staff 
retention. And I think you answered it, unless you wanted to 
add anything to that, but that was my concern.
    Ms. Slaughter. It is just that a loss of these people with 
such skills that are so important to the House, it would not 
just be a loss to the Rules Committee but a loss to the House 
of Representatives. And as I pointed out before, I think this 
needs to be said again, they are very valuable outside the 
House. We can name people in very key spots in the City of 
Washington who had their experience on the Rules Committee. 
They are premium employees for people in Washington.
    Mr. Sessions. I think what Mrs. Slaughter has said, I agree 
with. I am entering now my 15th year associated with the 
committee, of being on the committee. And I will tell you that 
some of the things we do is to talk people into or out of 
things they wish to do. But people seek information from both 
sides. They seek information about the best way to accomplish 
what they are trying to do. And a lot of times that is 
communication, and the staff level is very important. You don't 
really remember everything, I don't as a Member. But I know 
that, on both sides, we have the ability to work together and 
to remind each other what the past has been, what precedent has 
been set and how we can go about allowing each side, as they 
choose to operate within some parameters that do not embarrass 
a Member and likewise does not harm the institution that we 
serve. The betterment so that we are seen to the outside in a 
thoughtful way, that is what our senior leadership is about.
    And Mr. Vargas, I will tell you, it is probably never more 
apparent than Rules Committee because that is where the focus 
seems to come before a piece of legislation you know that will 
be on the floor. So both Ms. Slaughter and I are very concerned 
about how we temper our words with each other, the signals that 
I send her and the signals that she sends me; it has a lot to 
do with whether the team believes we are able to work together 
and that is directly related to the senior staff that we have 
at the committee.
    Mr. Vargas. Thank you, Madam Chair.
    The Chairman. The chair recognizes the gentleman from 
Georgia, Mr. Gingrey, a former Rules Committee.
    Mr. Gingrey. Madam Chair, thank you.
    I actually had a bit of an opening statement, and I will 
just submit that for the record. But I do want to thank you for 
calling this hearing today on committee funding for the 113th 
Congress.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.011
    
    Mr. Gingrey. And you are right, Madam Chair, I had a very 
good one term on, unfortunately, only one term serving on the 
Rules Committee, and without question, I think the Rules 
Committee is one of the most important, if not the most 
important, committee in the House of Representatives because 
without it, we couldn't function. The House of Representatives 
would not function without a strong minority and a strong 
majority.
    When you go to the Rules Committee, as all of us have done 
with our amendments from time to time and you think that all 
they do is argue and fuss and they sound like probably an all 
American debating club, each and every member of the Rules 
Committee is absolutely perfect in understanding the Rules of 
the House and articulating their side to a degree of excellence 
you won't see anywhere else on any other committee.
    So I did want to commend Ranking Member Slaughter and 
Chairman Sessions for the great work that you do.
    I want to ask one question because this is--we are going 
have to come back with a resolution in regard to your budget 
and understanding it is probably bare bones and I am sure it is 
bare bones in considering the 12, 14 percent cut last year, and 
now we are looking at the sequester and an additional who knows 
how much percent cut.
    Let me ask you this, Mr. Sessions, in your testimony, you 
mentioned that, and I quote, ``Costs that could be born more 
effectively by the Rules Committee will instead be shifted to 
the House and other legislative branch agencies at a much 
higher cost.'' Could you provide examples of those costs and 
which types of activities would have to be shifted out of your 
committee on to one of the other committees?
    Mr. Sessions. Yes, sir, and thank you for the thoughtful 
question, because in fact, that is the essence of what I 
believe Ms. Slaughter and I believe is an essential service 
product of the Rules Committee. As you are aware serving on the 
Rules Committee, we may meet at 2:00 or 3:00 in the morning. We 
try to meet different times now to help in fact with the cost 
of the House overtime and other things that happen as a result 
of all the buildings need to stay open as we are open for 
business.
    If we and our services are impeded or delayed, computer 
delay, printer delay, receiving information, transmitting on a 
timely fashion following the Rules of the House, then that 
means that others have to bear a cost as a result of our 
mistakes or inefficiencies. So I am asking you, as you have 
carefully understood, if you allow us to do our bare bones 
service that we need to do without--with some understanding 
that if we fail in our mission, it may cost other departments, 
other areas of this business, an extensive amount of money that 
would eat up the $12,000 or $15,000 that we would have gotten a 
computer; if we are broken down one time with a printer or 
computer, we would have eaten that up just in one time. So I 
think we do have a job to do and would say to you if we cannot 
meet our basic services, others pay the burden.
    Mr. Gingrey. Ms. Slaughter, would you like to add?
    Ms. Slaughter. Yes, just to restate what Chairman Sessions 
said, if we don't have the ability to do our job, what we would 
have to pay in overtime would be much more than giving us the 
budget in the first place so that we are able to function. As 
you know, the House does not meet unless Rules has put 
something on the floor to work on other than suspensions. So we 
can really bring the place to a halt. It would be awful if we 
did that because of equipment failure because we did not have 
an adequate budget. So the costs go far beyond what our 
committee does; they affect the whole House.
    Mr. Gingrey. I thank both of you. I thank you for your 
great work.
    Madam Chair, I yield back. I think my time has expired.
    The Chairman. I thank the gentleman.
    And the chair now recognizes the gentleman from Illinois, 
Mr. Schock.
    Mr. Schock. Thank, Chairwoman.
    I don't have any questions. I just want to add my praise 
and thanks to the good work you both do. It is an important 
committee to this institution and one that I don't envy you to 
run, but--I think you laid out a good argument, a good case for 
your lean, mean budget being maintained. I think the challenge 
for this committee will be the sequestration affecting all of 
us how do we go about restoring a committee or a portion of 
your cut and what effect that has on the rest of the committees 
that come before us. So, anyway, I have heard you, and you made 
a good case, and I will follow the chairwoman's lead on what we 
can do to help you out. Thanks for what you do.
    The Chairman. I thank the gentleman.
    The chair now recognizes the gentleman from Florida, Mr. 
Nugent, also a member of the Rules Committee.
    Mr. Nugent. Madam Chair, I appreciate your recognizing me.
    The opportunity to serve on Rules obviously has been an eye 
opener for me, to say the least. I am on my second term now 
going into Rules, and we see this all the time, particularly as 
it relates to getting a piece of legislation so the whole House 
has the opportunity to hear it, to debate it, whether it is on 
amendments or the underlying legislation. I myself have had to 
go down to the floor at 2:00 in the morning to bring a rule 
forward so we could actually debate it on the floor the next 
day. So when you talk about computers, everybody goes, well, 
everybody has a computer. But when you talk about the lack of 
equipment that we have, when we talk that we only have one 
printer, what would that do to us if that printer goes belly 
up? Obviously, it delays the proceedings, and we have all these 
other folks on queue ready to go, whether it is the 
Parliamentarian or security force or whoever, how do we get 
around that?
    Mr. Sessions. Well, first of all, let me say that I believe 
the committee effectively under Ms. Slaughter and Mr. Dreier 
well understood their basic mission, and with the money that 
was made available, there were normal and natural things that 
they knew they needed to do literally every 2 years because of 
a mentality of serving that customer. I think several years 
ago, we recognized as technology, I will use the word leapt 
forward or leaped forward, whatever is appropriate--if Virginia 
Foxx were here, she would be my English teacher--as it might 
be, as people have needs, we then used what extra money we had, 
outside of that basic model of customer service, and tried to 
then serve Members and other people that we have.
    We are now saying we made some changes in computers, in 
programs to enable people and now we are faced with basic 
services, so we are making you wander a mile in our sandals, 
and we are trying to say we have put off now buying that new 
printer that we first of all essentially did that had to take 
place right off the bat. And I think it would be a mistake for 
me to come up here and say, look, as a arch conservative, I 
believe everything we ought to do, we ought to fall in line; 
Chairwoman, you can count on us to be right there with you and 
to do what I believe a Member needs to do. As a chairman, I 
don't want to argue we are more important than anybody. What I 
would argue is, it is not something that we believe we should 
put ourselves at risk for. We have tried to cut everything else 
out, and that is why we are saying to you, Mr. Nugent, if 
something went out at 2:00 in the morning, and by the way, 
things do happen bad at 2:00 in the morning----
    Mr. Nugent. Murphy's Law.
    Mr. Sessions. It means it would delay everybody. We would 
have to get a computer person, reprogram things, get them out, 
simply to be ready to do work the next day. And in that 
process, it would mean perhaps tens of thousands of dollars as 
personnel were around watching us get our job done.
    Louise.
    Ms. Slaughter. I couldn't say it better. I think you 
covered that quite adequately. We really need to be funded so 
we can keep the House moving.
    Mr. Nugent. Your funding level, obviously, is staff-
intensive.
    Ms. Slaughter. Yes.
    Mr. Nugent. It is not a big staff, though.
    Ms. Slaughter. No.
    Mr. Nugent. And I will tell you that whether it is minority 
staff or majority staff, they both do a fantastic job, but it 
really is the institutional knowledge.
    Ms. Slaughter. Absolutely.
    Mr. Nugent. How do you replace that?
    Ms. Slaughter. Let me tell you, as far as I am concerned, 
Hugh and Miles, who are the chiefs of staff, are the best on 
this Hill, and everybody recognizes that. We hear from other 
committees all the time. We are very helpful to other people in 
parliamentary proceedings and numbers of things that they were 
able to help them with.
    Mr. Nugent. Well, without that parliamentary aspect of it, 
we don't do our business as a House of Representatives.
    Ms. Slaughter. The House comes to a halt, absolutely.
    Mr. Nugent. I want to thank both of you for your service, 
whether you are in the minority or the majority, it could be 
either way, but we certainly do appreciate both of you.
    Ms. Slaughter. Well, we appreciate having you on the 
committee with us, and we sure appreciate having you here 
because we know you are going to plead our case.
    Mr. Nugent. I yield back.
    The Chairman. I thank the gentleman.
    I certainly want to thank both the chairman and the ranking 
member for coming. Your testimony has been excellent, very 
poignant. And my last comment would be I certainly associate 
myself with all of the various remarks about the 
professionalism of staff.
    I know, Miles, certainly on your side, and on our side, 
there is always a steady line up behind Hugh, asking them this 
and asking them that about every rule that is going on here, so 
they are a valuable resource, not just for the Rules Committee 
but for the entire House.
    Ms. Slaughter. And the fact that they are friends and that 
we all work together I think makes the committee work 
extraordinarily well.
    Mr. Sessions. Chairwoman, if I could ask, I have some 
talking points, some of which I covered, some of which have 
been made available to you, I know this committee, just like we 
do, goes into extensive deliberations, and you are trying to 
make tough choices, I would like to ask, if I could, to enter 
those into that the record.
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.012
    
    [GRAPHIC] [TIFF OMITTED] 80285A.013
    
    [GRAPHIC] [TIFF OMITTED] 80285A.014
    
    Mr. Sessions. And I think if Louise, if she wanted to put 
hers in, it would allow you later, as you go back over and make 
tough choices, to remember us being here today and what we were 
trying to impart to you. And with great respect, both Louise 
and I, thank you for your time today.
    The Chairman. Thank you both very much. Appreciate it.
    Before we get to the Ways and Means, I would just ask 
unanimous consent to enter the following documents into the 
hearing record, which are a statement from myself, as the 
chairman of this committee, and a budget request materials that 
we have to submit as our own committee to ourselves really for 
the committee on House Administration. And without objection to 
the request, that is so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.015
    
    [GRAPHIC] [TIFF OMITTED] 80285A.016
    
    [GRAPHIC] [TIFF OMITTED] 80285A.017
    
    [GRAPHIC] [TIFF OMITTED] 80285A.018
    
    The Chairman. The chair now welcomes Chairman Dave Camp and 
Ranking Member Sandy Levin from the Committee on Ways and 
Means. I would ask the official reporter to enter a page break 
into the record as we move on to the Ways and Means.
    The Chairman. Obviously, Ways and Means is the chief tax-
writing committee in the House. Its jurisdiction extends to tax 
system, trade agreements, Social Security, Medicare. And its 
priorities in the 113th include comprehensive tax reform and 
implementation of recently passed trade agreements.
    With that, the committee would recognize the chairman of 
Ways and Means, Dave Camp from Michigan, the great State of 
Michigan.

 STATEMENT OF THE HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Camp. Thank you, Madam Chairman, and Ranking Member 
Brady, and members of the committee.
    I am here today to present the proposed budget for the 
Committee on Ways and Means for the 113th Congress, and I am 
joined by our Ranking Member Sandy Levin.
    As you consider how to allocate funding between the 
different House committees, I ask that you keep in mind the 
Ways and Means Committee's past record of fiscal restraint and 
aggressive agenda that is before us this Congress.
    As the panel with jurisdiction over so many aspects of our 
economy, it is critical to consider how decisions made about 
committee budgets will affect our ability to advance the 
country's number one priority, and that is strengthening the 
economy to generate much needed job creation.
    Assuring this committee has the resources to fill that 
mission is essential. In the 112th Congress, the Ways and Means 
Committee held 112 hearings, and 18 business meetings. Of the 
68 major pieces of legislation that became law last Congress, 
more than 1 out of every 4 of those laws came out of the Ways 
and Means Committee. That is just part of the story.
    As you know, much of the work is left to languish in the 
Senate. All told, the committee had 54 bills considered on the 
floor of the House last Congress, more than one for every week 
we were in session. Some of the major laws enacted include the 
repeal of the onerous 1099 IRS paperwork mandate, passage of 
three long-stalled trade agreements, reform of trade adjustment 
assistance and reform of the Federal unemployment program.
    We also began to lay the groundwork for comprehensive tax 
reform by holding over 20 hearings, public hearings, including 
3 joint hearings with the Senate, the first in over 70 years, 
as well as work on discussion drafts to reform our outdated 
international tax system and the taxation of financial products 
by Wall Street--created by Wall Street.
    Both full committee and the six subcommittees will continue 
to be very active this Congress. The committee is going to 
focus on comprehensive tax reform, which is needed to make the 
Tax Code simpler and fairer and to strengthen our economy and 
to create more jobs and higher wages; international trade 
policy, issues to expand our opportunities to sell American 
goods and services around the world, including a potential 
trade agreement with Europe, and completing work on the Trans-
Pacific Partnership, a critical counterbalance to China's 
economic growth and dominance in the region; improving the 
Nation's welfare and job training programs to advance job 
readiness and strengthen families; addressing entitlement 
reform to protect critical safety net programs like Social 
Security and Medicare; and vigorous oversight matters within 
our jurisdiction, including the implementation of Obamacare.
    The technical nature of the policies of each issue 
increases the staffing costs of the committee. Most staff have 
advanced degrees, whether it is in law, tax law, economics or 
public policy, as well as years of experience in and outside of 
government. Nevertheless, our staff is relatively small. The 
committee's funding was reduced by approximately 13 percent 
last Congress, as a result 8 staff slots on the majority side 
are vacant. Further cuts would critically hinder our ability to 
conduct the aggressive legislative and oversight agenda I have 
mentioned.
    As for the minority's budget, we have a long tradition at 
the committee of the minority receiving a full one-third of the 
entire committee budget and staff. In addition to receiving 
their allocation, the minority spends their money as they see 
fit without interference from the majority, and I will continue 
that practice in the 113th Congress.
    I want to thank the chairman and members of the committee 
for this opportunity to present our budget request and 
justification for that, and I look forward to any questions you 
may have.
    [The statement of Mr. Camp follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.019
    
    [GRAPHIC] [TIFF OMITTED] 80285A.020
    
    The Chairman. I thank the gentleman.
    The chair now recognizes the ranking member, the other 
gentleman from the great State of Michigan, Mr. Levin.

    STATEMENT OF THE HON. SANDER LEVIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Levin. Great State. You describe us so well. Also, you 
described our jurisdiction very well, Madam Chair, as our chair 
of the committee has.
    As is no secret, we have differences on many issues, there 
is no difference about the importance of this committee, and 
you have described it well, Mr. Chairman.
    So I really have little to add, except to emphasize how 
there is an allocation to the minority. That has been true in 
this committee all the years I have been on, 26 years. And we 
do well with money that is allocated to us.
    Let me just emphasize the squeeze, we have three vacancies, 
and we are not able to fill them. At the same time, we really 
this session have increased work because of the problems 
confronting this country. And so I know you have a difficult 
job, you need to look at each committee and its work, and I 
hope very much that you will be able to do that and to 
essentially evaluate the work and the needs of each committee 
on its own. I am sure you will do that, so that we will be able 
to continue to function well in terms of an immensely talented 
staff.
    All of you really rely on our staff and when you have 
issues relating to taxes, health, trade issues, whatever, you 
call upon our staff as well as your own. And we need to be able 
to sustain and, if possible, expand by filling some vacancies.
    So thank you for hearing us, and both of us are here for my 
questions.
    [The statement of Mr. Levin follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.021
    
    The Chairman. I appreciate your testimony and your 
comments.
    And I would say to both of you, certainly myself, and I am 
sure every Member on our committee and in the House has had an 
opportunity to interact with your staffs and have always been 
unbelievably impressed with the professionalism and what a 
critical component they are of keeping the House running and 
making sure that all of our questions are answered.
    And as the chairman just pointed out, one of every four 
pieces of legislation came from the Ways and Means at the last 
session, so 54 bills. That is--I hadn't realized it was quite 
that many, but it seems like every bill was coming out of Ways 
and Means. So I know you are very, very active.
    My only question would be from this particular committee, 
we really are trying to help with sort of some of the 
enterprise kinds of things that might be able to assist some of 
the other committees, utilizing new technology and that kind of 
thing. I am not sure if I am asking you a question, but if 
there is anything that we can do from our committee to assist 
you with duplicative kinds of things, we might be able to 
resource you a bit with, we certainly stand by in that regard 
as well.
    Mr. Camp. Well, Madam Chairman, to the extent that we have 
been able to, we have tried to go paperless and use technology 
and particularly in the miscellaneous tariff bill process that 
was a big help to us. I think that there might be an 
opportunity if we could find a way for committee offices to use 
the House cloud, because that might possibly--we have obviously 
created our own internal cloud, but it might reduce, in terms 
of servers, backup systems, I think that is something I would 
like our staff to explore with House Administration as a 
potential for some savings in the future.
    The Chairman. You can be assured, Chairman, that our 
committee has taken a note, our staff has taken a note of that, 
and we will be in contact with your staff director as well and 
see what we can do. I am sure there is a way we can assist.
    Mr. Levin. I don't have much to add on that.
    I think there is a very active, at times intimate, 
relationship between all the committees and the staff of our 
committee as well as Members. Just recently, you and I began to 
work on a matter of joint interest, and we just have a staff 
that is really available, not only to us but to everybody. And 
I hope you will just very much keep that in mind, I know you 
will, as you decide your difficult task.
    I hope--we know that some reductions are coming; there 
already have been some. I just hope you will keep in mind the 
salient activities of this committee, because your work is at 
stake, as well as the chairman and mine and all the members of 
the committee.
    The Chairman. The chair now recognizes the ranking member, 
gentleman from Pennsylvania.
    Mr. Brady. Thank you, Madam Chairman, and thank you, Mr. 
Chairman, and Ranking Member Levin, for being here today.
    My question is the same that I have, it bothers me we have 
to do these certain cuts. You mentioned your staff. I know you 
have specialties, a lot of your staff people have to have 
specialties with what you do. Do you have a problem keeping 
them? And with getting all these reductions, because I am sure 
a lot of them, I know a few myself personally, could make a 
whole lot more money someplace else with a whole lot less 
hours? And do you have a problem attracting them at the money 
that you have allocated to you that you can only afford to pay 
them? In other words, you have staff that may leave because 
they can't--there is so much loyalty, I guess, for lack of a 
better word, that staff have toward each other, but when they 
are out there and mingling with peers and they are doubling and 
tripling the money that they make, they have to feed families, 
too. And then to keep them is one thing, and to attract other 
staff when you do have a vacancy and you can hire somebody, do 
you have that problem, trying to find somebody who will come in 
for the amount of money that we can pay them?
    Mr. Camp. Well, your point is correct; many of the staff, 
first of all, as Mr. Levin has pointed out, we have an 
excellent dedicated staff who not only answer tax questions for 
members of the committee but for Members of Congress who are 
working on tax matters because of the highly technical nature 
of all of that. Many of them have advanced degrees and great 
experience. We have a number of long-time staff members on the 
committee, but you are correct, our committee staff do very 
well if they move into the private sector, and we do have that 
issue.
    The other point in terms of vacancies now is we have been 
anticipating sequester. Obviously, having been a member of the 
supercommittee, I knew this was coming. And so this is 
something we anticipated, but it is also very difficult to 
bring on very highly trained and educated people for a 
temporary spot. So I didn't consider it fair to be hiring a 
chief economist when that slot might not necessarily be able to 
be there. So we have got these vacancies as a result of both 
last Congress as well as anticipating what may happen. But yes, 
our staff, as they go into the private sector end up doing 
several times more than the salary we pay them here.
    Mr. Levin. I will just add briefly to your excellent 
question, a lot of the staff, so much of it in my experience in 
26 years, they stay because of their dedication. And there is a 
tendency in this country at times to criticize public service, 
but I think the test of their dedication is, for so many of 
them, they could leave and obtain--in fact, while we were in 
the other room, David and I were talking about somebody who 
left, and I was asking, how many times more was he earning than 
when he was working with us? And we chuckled and said, many 
times. And so there is a dedication here, and we need to be 
able to pay adequately so people stay as long as they can. When 
two, three, four kids come--we have a high birth rate on the 
Ways and Means staff it seems--and----
    Mr. Brady. I thought these people were spending a lot of 
time at work.
    Mr. Levin. No comment, but kids get older. We had someone 
on our staff, and kids have to go to college, and it costs a 
lot of money. So I think we need to be proud of our staff and 
to make sure there is an adequate structure of compensation. We 
know your job is tough.
    Mr. Brady. Thank you, both, for the excellent job you do 
under the circumstances.
    Madam Chair, I have no more further questions.
    The Chairman. The chair recognizes Mr. Vargas from 
California.
    Mr. Vargas. Thank you very much, Madam Chair.
    My question was virtually identical to the ranking member, 
without the issue of fertility rates, but other than that, my 
question was, again, can you retain your staff? I know it is a 
very valuable staff, and I think the question was asked and 
answered, so I appreciate it.
    Thank you.
    The Chairman. I want to thank both Chairman Camp and 
Ranking Member Levin for testifying here today, and we 
certainly, I am sure, the committee does recognize all of the 
legislation you put out in the past and sort of the unique 
challenges you face in the 113th, with comprehensive tax reform 
in particular, some of the things you will be working on, so we 
will certainly take all of that under consideration and 
appreciate your time here this morning.
    Thank you.
    The committee now welcomes Chairman Hensarling and Ranking 
Member Waters of the committee of Financial Services.
    We appreciate you both attending, and I ask the official 
reporter to please enter a page break, again, as we enter a new 
section.
    The Chairman. The House Committee on Financial Services 
certainly has jurisdiction over issues pertaining to the 
economy, the banking system, housing, insurance and securities 
and exchanges; additionally, jurisdiction over monetary policy, 
international finance, international monetary organizations and 
efforts to combat terrorist financing.
    In this era of financial instability, this committee will 
continue to legislatively combat ``too big to fail'' as well as 
any regulations that hamper Main Street and harm Americans.
    So, with that, I would certainly welcome you both to the 
committee.
    And the chair now recognizes the gentleman from Texas, the 
chairman of the Financial Services, Mr. Hensarling.

   STATEMENT OF THE HON. JEB HENSARLING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Hensarling. Thank you, Madam Chairman, and Ranking 
Member Brady and the committee.
    Ranking Member Waters and I are pleased to appear before 
you today on behalf of the Financial Services Committee.
    You instructed us to come up with two different funding 
scenarios, one of which we take an 11 percent cut from the 2012 
authorization to reflect sequestration; another representing a 
5 percent increase over what was spent last year.
    I don't necessarily come before you recommending either 
scenario, but to comply with your request. Certainly I believe 
that Congress must always lead by example in matters of 
budgeting, particularly as we face historic and unprecedented 
levels of national debt.
    Budgets are both about limits and priorities. I certainly 
recognize you have tough decisions to make in respect to both. 
I am mainly here to explain the priorities of the committee and 
discuss how we plan to allocate the resources to better serve 
taxpayers, investors, consumers and our members.
    Madam Chair, as you point out, in a very real sense, the 
Financial Services Committee has jurisdiction over the entire 
U.S. financial system, including the banking system, our 
capital markets, housing, insurance, monetary policy and 
international finance. Among the agencies we oversee are the 
Federal Reserve, Securities and Exchange Commission, Department 
of Housing and Urban Development, Consumer Financial Protection 
Bureau and several components of the Department of the 
Treasury.
    It is well recognized the 2008 financial crisis was the 
worst since the Great Depression, and most believe that the 
underlying causes and solutions fall within our committee's 
jurisdiction. Whether it is examining the role of government-
sponsored enterprises in the lead up to the crisis or the 
Federal Reserve's monetary policy, these are important issues 
that must be addressed as we do everything in our power as a 
Congress to try to avoid another similar crisis.
    It speaks of the importance of the work of the committee 
that we do through the work of 33 Republicans, 28 Democrats and 
a few dozen committed staffers, whose salaries comprise the 
vast majority of our budget. Just like every American family 
has to prioritize their spending, so do we, and it is our goal 
to allocate our funding so we can do more with less.
    In preparation for anticipated cuts, we have combined two 
subcommittees to streamline the workload. We put off major 
equipment purchases and delayed repairs and other IT 
investments. We refrained from fully staffing the committee 
according to our plan, leaving many spots vacant until we know 
for certain what we can afford. However, there are certain 
functions that we believe would be unwise to shortchange, 
including sending more jobs-growth bills through the House, 
through this House committee, communicating with and listening 
to those who rely on our financial system, and conducting 
effective oversight.
    One of the committee's signature achievements last Congress 
was delivering the bipartisan jobs act, which we believe will 
boost growth and help small businesses create jobs. I want to 
work with our members, both in the majority and the minority, 
and further bipartisan approaches to promoting economic growth 
and job creation. One of the best ways to find capital for 
small businesses is to unleash the capital that is sitting on 
the sidelines of our Nation's small- to medium-sized banks and 
corporate balance sheets. We will use or committee resources to 
further identify legislative solutions that will allow for 
regulatory relief and economic growth that will help remove 
some of this logjam and get capital flowing yet against to our 
small businesses.
    Our committee must also fulfill its commitment to effective 
oversight. As I mentioned, the jobs act is designed to 
revitalize the creation of small business jobs. Our committee 
will be intently focused on overseeing the act's implementation 
by financial regulators.
    We will, of course, continue our robust oversight of the 
Dodd-Frank Act. As you determine how to allocate resources 
among the committees, I would argue that Dodd-Frank is equal to 
the President's health care law in that both are sweeping, 
historic, massive pieces of legislation that restructure key 
elements of our economy.
    While the Affordable Care Act expands across three 
committees of jurisdiction, the Dodd-Frank Act is almost 
exclusively within the jurisdiction of the Financial Services 
Committee, and we will focus our energy and attention on proper 
oversight. In addition, the work of our committee impacts 
everyone who balances a checkbook or opens a banking account. 
Dodd-Frank includes a couple of thousand pages, 400 separate 
rulemakings that reach into every sector of our economy, every 
town, and every wallet. Virtually no one is beyond its reach, 
and not everyone can come to Washington to make their voices 
heard.
    In order to understand the full force of the legislation, 
we wish to make a concerted effort to reach out to people who 
are impacted. Under the leadership of my predecessor, Spencer 
Bachus, the Financial Services Committee convened hearings 
throughout the country to listen to the concerns of community 
banks and small businesses. Field hearings were held in 
Georgia, Wisconsin, Ohio, and other States. We believe these 
hearings were invaluable. They gave our members the opportunity 
to gather information that is not often gleaned on Capitol 
Hill. So increasing the number of field hearings, we believe, 
would allow our members to gather information on issues that 
are key to their consumers and constituents.
    Additionally, better use of technology and social media 
will allow us to listen more effectively to and communicate 
more effectively with Americans who are engaged as consumers or 
providers of financial services, as well as provide a renewed 
focus on member education so that our members will have the 
tools necessary to share the committee's business in a more 
transparent way with their constituents back home.
    In closing, we are prepared to do more with less, but we 
also have a plan in place if additional resources become 
available due to what we believe are the priority areas of this 
committee's jurisdiction. Our committee is already hard at 
work, and we look forward to a productive Congress and 
addressing our Nation's challenges. And I appreciate, again, 
the opportunity to appear before you.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Hensarling follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.022
    
    [GRAPHIC] [TIFF OMITTED] 80285A.023
    
    [GRAPHIC] [TIFF OMITTED] 80285A.024
    
    The Chairman. And the chair now recognizes the ranking 
member, the gentlelady from California, Ms. Waters.

   STATEMENT OF THE HON. MAXINE WATERS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Waters. Thank you very much. Good morning, Chairman 
Miller and Ranking Member Brady. I am pleased to join with 
Chairman Hensarling to testify before you today to discuss the 
budgetary needs of the Financial Services Committee. As ranking 
member of the Financial Services Committee, I am very concerned 
about any proposed reduction in the committee's 2013 budget.
    Like Chairman Hensarling, I am new to this position. 
However, I have been a member of the committee since 1991, and 
over that time, I have seen just how important adequate 
staffing and resources are for fulfilling the mission of the 
committee. I am very lucky that I have a topnotch staff at my 
disposal. They are experts in financial regulation, housing and 
community development programs, monetary policy, and a host of 
other issues.
    However, I believe that additional staff and resources are 
necessary in order for the committee to adequately provide 
oversight of our financial markets and regulatory agencies. We 
are currently understaffed, with only 18 staff members out of a 
possible 28. The workload for these staff members continues to 
grow. I believe that additional staff members are needed to 
provide sufficient oversight of major statutes that are just in 
the process of implementation. These laws include the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the 
Jumpstart Our Business Startups, that is the JOBS Act, and the 
Biggert-Waters Flood Insurance Reform Act.
    Dodd-Frank implementation will be of particular interest to 
the committee, as it involves critical rulemaking initiatives 
across nearly a dozen agencies, including the newly established 
Consumer Financial Protection Bureau. Moreover, I believe that 
there are opportunities to work with the majority in a 
bipartisan manner on several issues, including regulatory 
relief for the Nation's community banks. Additional resources 
would be helpful in achieving these goals.
    The minority receives one-third of the staff slots and 
total budget, with total control over both categories. You 
asked me to provide estimates of how the committee would 
allocate funds assuming an 11 percent budget cut from the total 
budget authority in 2012, or a 5 percent budget increase over 
what the committee actually spent in 2012. An 11 percent budget 
cut would impede my ability to bring on additional staff, that 
is senior staff members, to support the committee's legislative 
and oversight agenda. However, a 5 percent increase would allow 
for additional senior staff.
    In addition, I am aware that the majority intends to hold 
several field hearings this year. While the committee did not 
allocate funds for travel last year, this year we are 
allocating funds to allow for additional Democratic 
participation in any such hearings.
    With that, I will yield back, and I thank you very much.
    The Chairman. I thank the chairman and the ranking member 
for their testimony.
    [The statement of Ms. Waters follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.025
    
    The Chairman. And I am interested to hear you both comment 
about the field hearings. We did look at the amount of field 
hearings that you had in the last Congress, that the committee 
had, and can see that you are interested in plussing those up 
this time. So I appreciate the explanation from both of you 
about how important field hearings are to your committee.
    That is just an observation. I guess my only question would 
be, as we think about some of the possibilities of utilizing 
new technologies at all of our committees, when we had the Ways 
and Means here we were talking about some of the cloud 
computing and the availability that we might have from some of 
the House systems here, sort of the enterprise systems that we 
have within the House structure currently and whether or not 
our committee could assist you in any of those kinds of things 
as well, whether it is, you know, House-wide subscriptions or, 
as I say, cloud computing, some of these enterprise projects, 
if there is any possibility of us assisting you with resourcing 
in some of those areas as well.
    Mr. Hensarling. And I am sorry, Madam Chair, was that a 
question or a statement?
    The Chairman. That is a question. Yes. I don't know if you 
have anything in mind. If not, I guess I am just offering that 
up as we have our staffs discuss some of these possibilities, 
there may be some areas we can assist.
    Mr. Hensarling. Well, Madam Chair, I would like to explore 
that possibility. And although I am not an IT expert, in 
speaking to our staff we believe there may be opportunities 
with respect to data storage where the House could be of 
greater assistance, and there could be some efficiencies that 
could be had there. I think that we have availed ourselves of 
the availability of House-wide subscriptions, some of which I 
guess would fall into the technology area. And we also, I know, 
purchase a lot of our equipment through the House 
telecommunications office. But we will continue to find if 
there are areas of efficiencies and savings that could be had 
there as well.
    Ms. Waters. I, too, would be grateful for any assistance 
that we could receive from you as it relates to IT. I don't 
know at this point what that is, but I do know, to the degree 
that we are able to expedite the tremendous responsibilities we 
have, we could use whatever assistance we can get.
    I may take this moment to tell you that I was just talking 
with the chairman as we sat outside of this hearing room and I 
talked about the possibility of more field hearings or work. 
And some of what I am talking about is not necessarily field 
hearings as much as it is getting out and understanding some of 
the systems on Wall Street and understanding some of the 
systems in Chicago.
    We are now confronted with the kind of technology where the 
trading is going on faster than the mind can understand. And 
this nanosecond trading that they are doing has caused some 
problems, and I think we are going to see more of that. But we 
really need to see this at work, and how it works, and what it 
is doing. And so some of what I am referring to in terms of 
field hearings really does have to do with systems, trading 
systems. And I think we really need to be in New York and 
Chicago, in the futures markets to understand and get a real 
handle on what is going on.
    I also said to the chairman that I note that the New York 
Stock Exchange has been purchased by ICE, and I understand that 
there are some systems changes that are being made. I want to 
know what those are and I want to understand them better. Yes, 
we would like to have more assistance with IT if we can get it, 
and perhaps that will be helpful, but I want to go, I want to 
witness firsthand how some of these systems are working.
    The Chairman. Thank you. The chair now recognizes the 
ranking member.
    Mr. Brady. Thank you, Madam Chair.
    I just want to thank both of you for being here and the job 
that you do under tough circumstances with the bare bones and 
maybe getting cut a little bit more. My question is usually the 
same, but because I am in front of Mr. Vargas I get to ask it 
before he does. So I am going to just give back the balance of 
my time, and when he gets recognized in his order he will be 
able to ask the same question.
    The Chairman. I thank the gentleman. The chair recognizes 
the gentleman from Mississippi, Mr. Harper.
    Mr. Harper. I just want to thank both of you for the hard 
work you are doing, the great staff. I know this is not an easy 
time, and you will deal the best way I am sure you can with 
whatever figure we do come up with, and wish you well. Thank 
you.
    The Chairman. The chair recognizes the gentleman from 
California, Mr. Vargas, for his question.
    Mr. Vargas. Thank you very much, Madam Chair. And the 
ranking member has a reputation of being very generous to 
novices. So I appreciate it very much. Thank you very much.
    My question is with respect to retention of employees, and 
also attracting employees under the budget that you have and 
the projected budgets. I know that the people that work for you 
are very highly trained, and the opportunities that they have 
out in the private sector are significant, with a lot more 
financial gain for them. So what has been your experience and 
what do you anticipate with the budgets that you have proposed?
    Ms. Waters. Well, if I may, I am very interested in 
bringing on more senior staff with backgrounds and experience 
particularly understanding the capital markets, and 
particularly trading. As I have began to delve into what we are 
attempting to implement with Dodd-Frank, it is clear that as we 
talk about transparency with derivatives, we need people who 
understand the complications of derivatives and the creative 
ways that derivatives are being used.
    When we delve into some of the new tactics of trading and 
the platforms that we are trying to understand, we really need 
people who have background and really who have experience. And 
so we desperately need this. And when we try and compete with 
Wall Street, with New York, with Chicago, what have you, for 
these people, it is difficult. It is very hard. But if we are 
to do a good job here, we have got to go after people, we have 
got to be able to pay them a decent salary. And our committee 
depends on knowledge, experience, and talent.
    Mr. Hensarling. As I said in my testimony, Congressman, in 
anticipation of reaching the moment that potentially we could 
have this sequester, in the original staff plan based upon the 
historic norms of funding, we did not fully ramp up our staff. 
So I am not so concerned about retention. I have concerns, 
again, that relative to the tasks that we fill or the 
responsibilities we have on what is probably oversight of the 
most sweeping law since the New Deal with respect to capital 
markets, credit markets, Dodd-Frank, in respect to the work, 
that we have to do everything we can to ensure we do not 
replicate the financial crisis of 2008. Yes, I am in full 
agreement with the ranking member, we want to ensure that we 
have staff that have expertise in what many members view as a 
fairly arcane area of legislation. That would be most helpful. 
Again, I don't have your job. It is a difficult one in trying 
to balance relative priorities. But I hope we have made a case 
that, again, the responsibilities of this committee are 
immense, and relative to that challenge we believe that we are 
understaffed.
    Mr. Vargas. Madam Chair, I guess I would simply comment 
that this is an area where I have a little bit of expertise. I 
was vice president at Liberty Mutual, as well as Safeco 
Insurance, and the law has changed dramatically and is changing 
dramatically, especially for large insurance companies, 
interestingly, too. And this is an area where I think that, I 
don't know, I certainly would look at their budget in a way 
that, you know, with Dodd-Frank and the changes that are being 
made are substantial.
    Anyway, I would just make that as a comment. And I 
appreciate the work that you have done. And I think you have a 
lot of work ahead of you.
    Mr. Hensarling. Would you care to join our committee with 
that expertise?
    The Chairman. I appreciate the gentleman's comment. And I 
think it is true that this committee does have some rather 
unique challenges going forward. And I think this committee 
will certainly recognize that and be very aware of the comments 
and the presentations that you have both made this morning. And 
we are appreciative of that, and would excuse you. Thank you 
very, very much. Appreciate it.
    Mr. Hensarling. Thank you.
    Mr. Harper [presiding]. The committee now welcomes Chairman 
Kline of the Committee on Education and Workforce.
    Would the official reporter please enter a page break into 
the hearings record to begin a new section?
    Mr. Harper. The Committee on Education and Workforce has 
jurisdiction over our Nation's schools and workplaces. The 
committee oversees programs that affect hundreds of millions of 
Americans, from school teachers and small business owners to 
students and retirees. The committee's priority in the 113th 
Congress is to build on the vital reforms set in motion during 
the past decade: pressing for enhanced flexibility and local 
control in education, modernization of outdated Federal rules 
that stifle job growth and innovation, and affordable access to 
health care, retirement security, and training for American 
workers.
    Chairman Kline, we welcome you. You will have 5 minutes to 
testify before the committee. And you are now recognized.

STATEMENT OF THE HON. JOHN KLINE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Kline. Thank you, Chairman Miller, Ranking Member 
Brady, and members of the committee. Thank you for the 
opportunity to appear here to testify about our committee 
budget for 2013. I understand that my colleague, Mr. Miller, is 
on the other side of the Capitol and trying to make his way 
over here.
    In 2012, our committee was allocated $7,812,094. This 
represented a 6.4 percent cut in 2012, with an overall 11.4 
percent cut for the 112th Congress. We honored this cut by 
leaving numerous staff positions vacant on the committee. Our 
staffs took on additional responsibilities and expanded their 
areas of expertise. In late 2011, we heard rumors of possible 
additional cuts for 2012, so we put caps on committee travel 
and committee printing. Due to our prudent planning, we only 
spent 82 percent of our overall committee budget.
    My message to you today is: Don't punish the good actors. 
Don't punish the good stewards of taxpayer dollars. We can only 
go so lean for so long. We are asked to testify today to both 
an 11 percent cut from our 2012 allocation and a 5 percent 
increase over what we spent in 2012. We recognize the fiscal 
challenges that exist across this country and we are willing do 
our part to contribute to fiscal responsibility.
    But I sit here today to warn you that drastic additional 
cuts to this committee would affect committee product. Mr. 
Miller and I have great aspirations for this Congress. We want 
to reauthorize the Workforce Investment Act, Elementary and 
Secondary Education Act, Higher Education Act, and we also want 
to reform the multiemployer pension system. But all of this 
requires extensive committee resources. An additional 11 
percent cut from our 2012 allocation or a 5 percent increase 
from our 2012 actual expenditures spreads us too thin on the 
work we want to do to achieve the best legislative product and 
conduct the best oversight.
    In particular, deep cuts mean fewer site visits and fewer 
field hearings. Last year, my staff went on a site visit to a 
high school in West Virginia to see implementation of the new 
school lunch standards. They sat with the students and they ate 
chicken on a biscuit. These real world visits are helpful. They 
let us bust out of this Federal bubble and see what 
implementation looks like. It is the best way to see successes 
and identify challenges.
    I feel the same way about field hearings. Field hearings 
are a small way to take the Capitol on the road. They provide a 
firsthand look at the issues under our committee's 
jurisdiction, such as employer-sponsored health care and 
workforce training. I hope the committee takes these important 
activities into account as they determine our budget. If we 
must choose between an 11 percent cut from 2012 allocation and 
a 5 percent increase over what we spent in 2012, we ask for an 
11 percent cut from the 2012 allocation. On this, Mr. Miller 
and I agree. This treats all committees fairly and doesn't 
punish the committees who, like us, were good stewards in 2012.
    Thank you for the opportunity to testify. I appreciate your 
time, and would be happy to answer any questions.
    The Chairman [presiding]. Thank you very much, Mr. 
Chairman.
    [The statements of Mr. Kline and Mr. Miller of California 
follows:]
[GRAPHIC] [TIFF OMITTED] 80285A.026

[GRAPHIC] [TIFF OMITTED] 80285A.027

[GRAPHIC] [TIFF OMITTED] 80285A.028

[GRAPHIC] [TIFF OMITTED] 80285A.029

[GRAPHIC] [TIFF OMITTED] 80285A.030

[GRAPHIC] [TIFF OMITTED] 80285A.031

    The Chairman. I guess my question is, we have been asking 
similar questions to the other chairmen and ranking members as 
they testified here about the possibility of our committee 
actually assisting you, resourcing you a bit with any kinds of 
new technology that might be able to be utilized your 
committee, whether that would be sort of the cloud computing, 
something, for instance, that Ways and Means was very 
interested in working with us on, or, you know, different kinds 
of subscriptions that can go House-wide, or various kind of 
duplicative kinds of things that might be happening at your 
committee that we could help you resourcing with so you would 
have a little more cash maybe to spend on your field trips or 
staffing levels or what have you. I am not sure if that is 
really a question, it is certainly an observation. If there is 
anything our committee can help you with, we certainly want to 
do that.
    Mr. Kline. Well, thank you, Madam Chair. I took that as a 
question and an offer on your part which we would like to take 
advantage of. I mean certainly subscriptions are helpful. But, 
for example, you provide, the House provides the television 
coverage of our hearings, but don't provide the closed caption 
coverage. And that would be enormously helpful to us, and 
particularly I would argue in our committee, where we have 
jurisdiction over IDEA, for example, it would be very, very 
helpful. We already spend money out of the committee budget for 
closed captioning. If that is something the House could take 
over, it would indeed be helpful. And so that is my response.
    The Chairman. Very good.
    Mr. Kline. And I am urging the committee to help us with 
that if you can.
    The Chairman. I know that we are taking notes here about 
that.
    Mr. Kline. I saw that, Madam Chair. I was very pleased to 
see it.
    The Chairman. And we will certainly take a look at that. 
The chair recognizes the ranking member.
    Mr. Brady. Thank you, Madam Chair. Just to thank you for 
coming in front of us and doing the job that you do under some 
tough circumstances. Appreciate you being here. Thank you.
    Mr. Kline. Thank the gentleman.
    The Chairman. Chair recognizes the gentleman from 
Mississippi, Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    And Glad to have you here, Mr. Chairman. Are there any 
special circumstances that we should be aware of that set the 
Committee on Education and the Workforce apart from other 
committees as we are looking at budgeting matters that you 
think we should be aware of?
    Mr. Kline. I don't anticipate any such special 
circumstances. I was aware of the committee's interest in this 
and had a discussion with staff. I don't think there is 
anything that falls under that category. We are going to 
continue to follow the aggressive agenda that we have shown for 
the last Congress and this Congress. But I don't see a special 
circumstance.
    Mr. Harper. Well, I appreciate your good stewardship in the 
last Congress, and I know you will do the same this time. Thank 
you, Mr. Chairman. I yield back.
    Mr. Kline. Thank the gentleman.
    The Chairman. Thanks very much, Mr. Chairman. We appreciate 
your testimony this morning. And we certainly will take it all 
under advisement, and we will get back with you. But we 
certainly appreciate the unique challenges that you face in 
your committee going forward and want to help resource you as 
we can.
    Mr. Kline. Thank you, Madam Chair.
    The Chairman. The committee now welcomes the chairman of 
the Transportation and Infrastructure, Mr. Shuster, and the 
ranking member, Mr. Rahall. We appreciate you both being here.
    We would ask the official reporter to enter a page break in 
the hearing transcript.
    The Chairman. And I would just say that as a member of the 
T&I Committee as well, I have often said that when I talk to my 
constituents about what happens on the T&I Committee, I say you 
can just think about the economics of our Nation as always 
follow the transportation grid. Whether it was the wagon trains 
going out West and the early part of the country opening up, 
and then the railroads came, and then the Interstates came, and 
now the aviation links are such a critical component, and 
shipping as well. And the jurisdiction that you have on your 
committee is very far-reaching, and I know you have some unique 
challenges this Congress. And the chair would now recognize the 
chairman for his opening statement.
    Mr. Shuster.

    STATEMENT OF THE HON. BILL SHUSTER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Shuster. Well, I thank you, Madam Chair, for the 
opportunity to be here today, and appreciate your kind words on 
the committee. I would also say, for 230 years, going back to 
our Founding Fathers, the commerce, the transportation link has 
been what has really connected this country physically. So we 
take it very seriously and look forward to working in this 
Congress over the next 2 years with a pretty big agenda.
    So thank you, Madam Chair and Ranking Member Brady. It is 
good to see you, my friend from Philadelphia. Members of the 
committee, thank you for the opportunity to appear here today 
before you in support of the budget request for the coming 
fiscal year. The committee is committed to ensuring that every 
tax dollar goes to good use, both at the agencies we oversee 
and within our own offices. In an era of constrained budgets, 
we must focus on spending on those things that are necessary to 
advance our agenda. The greatest resource and greatest expense 
of our committee is our knowledgeable and experienced staff. 
The committee staff not only benefits our members, but also 
serves as a resource for the entire body.
    The Transportation and Infrastructure Committee is looking 
forward to a productive 113th Congress. We have a lot of work 
to do. Our legislative agenda for the next 2 years includes 
addressing the Nation's aging water infrastructure in a Water 
Resources Development Act, reauthorizing of surface 
transportation programs set to expire next year, reforming 
passenger rail, and additionally we will seek to bring a FEMA 
reform bill to the floor. The committee has also developed a 
significant oversight plan. Last Congress, the committee passed 
major authorizations that now require oversight. As the current 
administration implements these laws, we will ensure that they 
do so in an efficient and cost-effective manner.
    Transportation programs are inherently partnerships with 
States and local interests. What is necessary to develop these 
programs with folks outside the Beltway is those partnerships. 
Surveying the country's highways, waterways, railroads, 
seaports, and airports provide the committee with the context 
for our policies. It is our responsibility to educate the 
committee and the House on the national transportation system, 
and the travel allotment in the budget allows us to do so. 
Together with my friend and ranking member, Nick Rahall from 
West Virginia, we have compiled a committee funding request 
that is $773 below last year's level. The level is about 5 
percent above the previous Congress' actual spending. Last 
Congress was the only one chaired by my predecessor, and 
because of his short tenure he made few staffing additions as 
he transitioned from ranking member to chair. This was 
reflected in his budget.
    With regards to the allocations of resources between the 
majority and the minority, we will continue to provide two-
thirds of the personnel budget to the majority and one-third to 
the minority. This is consistent with previous Congresses. The 
majority and minority will continue to fairly share a budget 
for nonpersonnel expenses.
    Finally, Madam Chair, to bring up a subject you and I have 
talked about on the floor before, before I yield to Mr. Rahall, 
I am going to ask you all to hear me out on this, the Rayburn 
House Office Building, as you know, is sometimes very difficult 
to navigate. And I proposed to the chair that to make it more 
hospitable, to stencil the names of the corresponding streets 
onto the walls in the different hallways. I think you would not 
only help visitors but Members who get lost in that building. 
So again, I think to better navigate I propose that again to 
you. I think it would make this committee the hero of Congress. 
Because I have been around for 12 years, and sometimes I walk 
out of those committee rooms and go, where am I? And there is 
no point of reference. So, again, I would propose that would 
make you all the heroes of Congress if you would help us get 
through the Rayburn Building.
    So again, thank you for providing this opportunity. I would 
be happy to answer any questions, and yield back.
    The Chairman. I appreciate that.
    [The statement of Mr. Shuster follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.032
    
    [GRAPHIC] [TIFF OMITTED] 80285A.033
    
    The Chairman. And you know I am a lifetime boater, I always 
feel like I have a pretty good sense navigational-wide of where 
I am. I am in the Rayburn, I am always looking for my bread 
crumbs. And I do sometimes walk out and go, where am I? So I 
appreciate that----
    Mr. Shuster. If you stencil those street names up there, 
you would know where you are all the time.
    The Chairman. And it is all about transportation, how we 
transit around the campus here, right? So with that, I would 
recognize the ranking member.

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Madam Chair, Ranking Member Brady, 
for this opportunity to be before you today. And I certainly 
appreciate your comments, Madam Chair, about the bipartisan 
nature of our Transportation and Infrastructure Committee, upon 
which you serve. We have worked bipartisanly together as well 
on National Guard legislation, giving them a seat at the Joint 
Chiefs of Staff. And both of us being recipients of the Harry 
Truman Award, the most prestigious award the National Guard 
gives out. And I am proud to talk with that wherever and 
whenever I go, and that was a bipartisan effort with you.
    During the last Congress, the committee minority was 
treated fairly. I controlled one-third of the budget for staff 
salaries and other matters such as equipment and supplies, 
where it dealt with, on a nonpartisan basis. And as Chairman 
Shuster, my good friend, has testified, we do not anticipate 
changing that under his leadership. And I do appreciate his 
efforts to reach out to the minority on this and so many other 
issues before our Committee on Transportation and 
Infrastructure.
    Now, you have asked House committees to submit two budget 
options, one which would provide for an 11 percent reduction 
from the current spending authorization, the other which would 
provide for a 5 percent increase from actual total expenses. In 
the event the 11 percent reduction option becomes final, I 
would have to reduce my committee staff salaries by $165,048, 
if the traditional 10 percent of the budget is dedicated to 
equipment, supplies, and maintenance.
    To put that figure into perspective, Madam Chair and 
Ranking Member Brady, if that cut is applied equally across the 
board, each one of my staffers' salary would be reduced by 
$6,877. As we all know, on Capitol Hill, in order for us to do 
our jobs for the American people, it is essential that we are 
supported by qualified staff. And it is a plus if they are 
seasoned and they have some institutional knowledge.
    In my case, my committee staff director, Mr. Jim Zoia, has 
been with me for 32 years. My committee chief counsel has 
served for 20 years. I have two other staffers who have worked 
for the House of Representatives for 18 and 17 years 
respectfully. This type of seasoned staff not only serves us 
all well, it serves me well, but they well serve the entire T&I 
Committee Democratic Caucus. In each case, these staffers have 
had more than ample opportunity to leave House employment for 
more financially lucrative jobs in the private sector. Instead, 
they have opted for continued public service.
    So I would hope that an 11 percent cut is not the route we 
would go for committee budgets. Again, I thank you for this 
opportunity to testify, Madam Chair and Ranking Member Brady, 
and be glad to respond to questions.
    The Chairman. I appreciate that very much.
    [The statement of Mr. Rahall follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.034
    
    The Chairman. I actually had the staff pull out some of the 
detail that you had submitted in regards to some of your field 
hearings. And first of all, let me just say how appreciative I 
am of what you have come forward with, with the cuts and 
everything else. And I think most committees, I guess, but 
certainly T&I does have a necessity to get out into the field, 
so to speak, when you are talking about all the various States, 
I mean every State that we impact, and et cetera, et cetera. So 
I am just sort looking at some of the detail on that.
    And I guess my question is one I have been sort of asking 
some of the other chairs, and an observation or a question, if 
whether or not, with some of the new technology that is 
available, whether our committee can help resource your 
committee with various kinds of things. And if you don't know 
the answer to that, I guess I am offering up our staff to work 
with your staffs about, like, cloud computing, some of the 
various things. I think apparently you have already got 
something a little different than cloud. But that is about to 
stop here on your lifecycle with that. I am not quite sure 
where it is. But at the expiration of that contract, that would 
be something we, I think, could really help you with and help 
with some of the expenses that you have on that. So some of the 
various services we have within our jurisdiction here to help 
you, we would like to be able do that if we can. So if you have 
any questions or comments about different kinds of equipment or 
technology we can help you with, we want to do that.
    Mr. Shuster. Sure. I appreciate it. Some of that we have to 
look into. I know teleconferencing would be something we could 
do more of, I think help us. When it comes to technology, I am 
not the person to ask. I can barely use my BlackBerry.
    But I also want to concur with Mr. Rahall on the 5 percent 
increase for us actually is, based upon last year, Chairman 
Mica gave back so much money, a 5 percent increase is not an 
increase in our overall budget, It is actually still less than 
it was last year. So, again, looking at our staffing needs. We 
are going to do probably 18 field hearings this year, give or 
take. But the amount of oversight we have to do, we have to do 
oversight on the FAA bill, oversight on MAP-21. And when I look 
at, for instance, FAA, we have got between the two of us about 
60 or so staff, and the FAA has got 47,000 people. So, you 
know, we are up against a behemoth when it comes to try to get 
information and do aggressive oversight. So again, it is 
something to consider.
    The Chairman. Yeah, and particularly so I think with 
sequestration, there has been a big focus on what is going on 
with the FAA and what is actually going to happen out there and 
the traveling public.
    Mr. Rahall. I associate myself with the comments of 
Chairman Shuster, Madam Chair. And it is certainly a tremendous 
offer you have made, and it does merit further exploration. The 
chairman has mentioned the various oversights we have, and he 
has only touched the top of the iceberg. There is many, many 
other safety issues, especially for the traveling public, that 
we will have to address. And those are major concerns for all 
of us.
    The Chairman. Appreciate that. The chair recognizes my 
ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chair.
    I just wanted to expand upon what you had said about the 
staff people. I have been asking the committees the same 
question. With the cuts that we had and the cuts we may be 
getting, but we don't know what they may be, are you able to 
maintain--and it seems that you have because you have a lot of 
staff members that have been with you for a long time--but it 
is hard to maintain people with that institutional knowledge 
without paying them a decent amount of money. I am sure they 
can go out and get more money doing what they do on the outside 
rather than be here on the inside and on the Transportation 
Committee. And also do you have a problem with--asking both of 
you--do you have a problem maybe even attracting quality staff 
that would come to work for a small, you know, not a large 
amount of money anymore? That again that they can make more 
money on the outside.
    It is the staff driven that we all are, and I just think 
they are the ones that are getting the short end of all of 
this, and we are getting the short end by not being able to get 
qualified people to come to work for us, especially fields, 
especially in transportation. So, I mean, are you having 
problems keeping--you probably not, but they must be paying a 
heck of a sacrifice--or even attracting new employees?
    Mr. Rahall. Well, Mr. Brady, I would say that, you know, we 
have a lot of people willing to work in public service seeking 
jobs every day. But what I am referring to, and you are as 
well, are the qualified institutional knowledge that is so 
effective here on Capitol Hill, those that have, like myself, I 
guess, been around for a few decades or so. And it is that 
institutional knowledge, the battles through which many staff 
have been through, conference committee negotiations, the give 
and take between the two bodies, the chemistry of the players 
involved and the bureaucracies involved, that is what is so 
important to us.
    So those that are seeking jobs that I referenced in the 
beginning of this response don't have that knowledge. And, yes, 
they are willing to come and work for us at probably minimal 
wages, but the institutional people require larger pay, 
obviously. But even that larger pay that we pay them cannot 
compete with the private sector, and that is a tremendous draw 
downtown, K Street or whatever street you want to call it. When 
they come knocking on our staffs' door, it is hard for many of 
them to turn that down. But they do, there are those that do, 
such as work on our T&I staff and on my staff. And they are the 
ones you just have to struggle to keep. And that knowledge is 
so important to the legislative process.
    Mr. Shuster. I would agree with Mr. Rahall. We have been 
able to attract good talent, smart people. But I think long 
term keeping them it becomes difficult because they can make 
more money on the outside. And having that institutional 
knowledge is absolutely critical.
    Mr. Brady. Well, thank you. Thank you, Mr. Rahall, and 
thank you, Mr. Shuster. It is good to see you sitting there. I 
was very happy and proud to know a fellow Pennsylvanian was 
going to chair the Transportation Committee. But more than 
that, I am sure your dad is proud to have you follow in his 
footsteps. And they are tremendous size footsteps, sir.
    Mr. Shuster. I am not even trying to fill them, I am just 
trying to get in and out of them.
    Mr. Brady. And I am looking forward to seeing him hopefully 
Saturday night, and give him my best. Thank you.
    Mr. Shuster. Thanks.
    The Chairman. The chair now recognizes the gentleman from 
Mississippi.
    Mr. Harper. Thank you, Madam Chair.
    And thanks to each of you for the work you are doing. And I 
know that you have been good stewards of what we are attempting 
to do here. But as we are trying to set what the funding level 
will be for your committee for this Congress, are there any 
special circumstances that haven't been discussed that you 
think we should be aware of that perhaps hadn't been mentioned?
    Mr. Shuster. I just think our agenda is pretty significant. 
I know there is a lot of committees that have, but we have 
three significant bills we have to do, plus others that we are 
attempting. And then a pretty broad and large oversight, from 
MAP-21 to FAA, which I mentioned, which are the bigger ones. 
But as Mr. Rahall mentioned, there is a number of things that 
we have to have oversight over that we are aggressively 
pursuing, and having a pretty aggressive taking the Congress 
outside the Beltway, because especially what we do with 
partnering with States and locales, it is important for us to 
see firsthand. There is no substitute. I can read reports and I 
can have people tell me about it, but until you go to the Port 
of Brownsville in Texas and see the kind of operation they have 
there and the need for the dredging and the widening, and it is 
$3 billion to $4 billion of investment that will come that will 
help with the U.S. economy, that will help the State of Texas, 
I think it is important to see it firsthand.
    Mr. Harper. Thank you. And I yield back.
    The Chairman. Thanks very much. And we certainly appreciate 
both the chairman and the ranking member being here. And we 
recognize the unique considerations and challenges that the 
committee has in the 113th here as we go into the budget year, 
particularly with the sequestration, the oversight 
responsibilities that you have. And you have laid out some 
certainly excellent arguments why we need to look at your 
request. And we certainly will give it every consideration. And 
we appreciate it. Thanks so much.
    Mr. Shuster. Thank you, Madam Chair. And I will be happy to 
help you pick out the paint for that stenciling on the walls of 
the Rayburn Building.
    The Chairman. With that, the committee will be in recess 
for 2 hours. We will reconvene at 2. Now, we have a vote series 
at 2. But I think we will just reconvene at 2. We will see what 
time they call the votes, and try to get her done here today.
    [Recess.]
    The Chairman. The committee will come back to order, and 
the committee now welcomes Chairman Jeff Miller and Ranking 
Member Michaud on the Committee on Veterans' Affairs. And I 
would ask the official reporter to please enter a page break 
into the hearing to begin a new section.
    The Chairman. The Committee on Veterans' Affairs recommends 
legislation expanding, curtailing, or fine tuning existing laws 
relating to veterans' benefits. The committee also has 
oversight responsibility of the VA, and of course the committee 
is the voice of Congress for veterans in dealing with the VA as 
well. Its priorities for the 113th Congress are to continue to 
make sure our veterans are afforded the very best and most 
effective care possible that helps their transitions to 
civilian life, make sure they are as efficient as possible, and 
to conduct vigorous oversight of the Department of Veterans 
Affairs so that it is meeting all the needs of our Nation's 
veterans. And the committee is very appreciative of both of you 
coming, and at this time I would recognize the chairman of the 
Veterans', Mr. Miller from Florida.

STATEMENT OF THE HON. JEFF MILLER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Miller of Florida. Thank you very much, Chairman Miller 
and Ranking Member Brady. It is great to be back before you 
again to discuss the Committee on Veterans' Affairs budget from 
113th Congress. My good friend, Ranking Member Mike Michaud, 
joins me here at the table today. We have submitted our funding 
request forms for 2013 per your committee's guidance on budget 
reduction amounts. As in the past, we have no choice but to 
find those savings from decreasing our personnel budget and 
continuing to combine and consolidate administrative 
responsibilities. And we will make some tough decisions on 
equipment purchases and travel should we receive a further cut.
    As you know, the committee has oversight over the entire 
Department of Veterans Affairs, as well as over various 
programs serving veterans at the Departments of Labor and 
Defense, sharing Arlington National Cemetery's oversight and 
other matters. The Department of Veterans Affairs is the 
second-largest Federal agency, employing over 300,000 people, 
with a budget of roughly $140 billion. Due to budget 
constraints, we perform our oversight role with only 25 of the 
committee's 36 staff slots filled, 16 majority and 9 minority.
    Further illustrating our lean operations at the committee, 
we currently have an Oversight and Investigations majority 
staff of only three. Adding an investigator as a fourth staffer 
is a necessity during this Congress, and I feel that we also 
are going to need to hire an additional person in our Health 
Subcommittee. We currently have only two staffers overseeing 
the Nation's largest integrated healthcare system, and most 
member travel in concordance with the committee's oversight 
duties falls within the Health Subcommittee's jurisdiction, and 
that preparation falls to this very small staff. Additionally, 
the very high volume of health-related bills introduced in the 
House and requiring the analysis of this subcommittee warrants 
a third committee staffer.
    I am very proud that we did in fact return money last 
Congress, given the committee's commitment to living within its 
means. We did not fully staff the majority to allow some 
flexibility within our budget reduction for any unforeseen 
circumstances and so that we would not find ourselves in the 
undesirable position of having to let people go. That does not 
negate the critical need that we have to fill the vacancies 
that I have previously discussed.
    The full committee again has an aggressive oversight plan 
and has already engaged in oversight in several of the many 
areas that I have mentioned. As was the case last Congress, we 
hope to be able to afford each subcommittee chair and ranking 
member an opportunity to hold a field hearing on oversight 
matters that are important to their respective subcommittees. 
We will also be holding full committee oversight hearings as 
the need arises. This will require the retention of our 
extremely modest travel budget.
    The vast majority of the committee travel in which our 
members engage is actually funded by the Department of Veterans 
Affairs, the very agency over which we are charged with 
oversight. While this may seem ideal, it also puts the 
Department on advanced notice each and every time that the 
committee engages in an oversight visit.
    Now, turning to equipment, last year we upgraded one-third 
of our computers, using end-of-the-year available funds, but we 
will need to upgrade another third this year and then again in 
2014. We also replaced a correspondence management system that 
has not been updated in 8 years and will cost us approximately 
$5,000 a month for maintenance and support. The previous system 
was no longer technically supportable.
    This is a small committee charged with an awesome 
responsibility: oversight of those who care and provide 
services for our Nation's warriors and their families. In doing 
so, we have exercised extreme fiscal responsibility, and any 
further cuts will be challenging. But, in keeping with our 
practices of the past 2 years, we are anticipating and planning 
for those cuts. Madam Chairman, you have my assurance that we 
will continue to account for and stretch every dollar afforded 
to us as we out-stride the expectations placed upon this 
committee.
    My humble request for you and this committee is that our 
committee not be punished for our good stewardship of the 
taxpayers' dollars. I appreciate the opportunity to appear 
before you today and would gladly welcome any questions that 
you may have.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Miller of Florida follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.035
    
    [GRAPHIC] [TIFF OMITTED] 80285A.036
    
    [GRAPHIC] [TIFF OMITTED] 80285A.037
    
    The Chairman. And the chair now recognizes the ranking 
member, from Maine, Mr. Michaud.

 STATEMENT OF THE HON. MICHAEL H. MICHAUD, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Michaud. Thank you very much, Chairman Miller and 
Ranking Member Brady, for this opportunity to appear before you 
today to speak in support of the proposed budget from the 
Veterans' Affairs Committee. I am pleased to join with Chairman 
Miller to support the proposed budget. We approach this effort, 
as we do everything in the committee, in a bipartisan manner, 
looking to what is in the best interest of our Nation and our 
veterans.
    I believe our proposed budget is a barebones budget. The 
committee has already been a good steward of resources afforded 
to us in the past. We have diligently reduced cost and achieved 
savings where we could while ensuring that the committee 
continues to operate on a sound fiscal footing. Much will be 
expected of this committee during this Congress. With our 
conflicts drawing to a close in Afghanistan, we must ensure 
that our returning servicemembers receive the benefits that 
they have earned in a timely fashion. This will require a lot 
of oversight and attention by our committee.
    In addition, almost all of the Department of Veterans 
Affairs' major transformational initiatives are planned to come 
to fruition in 2015. This includes efforts to tackle the claims 
backlog, homelessness among our veterans, and deliver an 
integrated Electronic Health Record. As you can read in the 
newspapers, and if you can see from listening and watching our 
hearings that have been held so far, many of these initiatives 
do not seem to be going well. They are not making the progress 
in a manner that would make us feel comfortable on the 
Veterans' Affairs Committee that the goals laid out over the 
next 2 years will be met.
    In a tight fiscal environment, among many competing 
priorities, veterans must remain one of our highest priorities. 
One important way to achieve this is to ensure that the 
resources we have provided to the VA are producing outcomes 
that we have intended. All of this will require an enormous 
amount of policy guidance and oversight by the committee, and 
it is essential that we have the necessary resources in order 
to meet our responsibilities. I believe, along with Chairman 
Miller, that our proposed budget provides those needed 
resources.
    On a final note, as you know, I became the new ranking 
member of the committee this year. Change often brings new 
direction and focus on our efforts on many of the challenges 
that we have in our veterans community, and I am extremely 
proud of the dedicated and effectiveness of the staff who have 
remained with us in and the new staff that I am bringing on 
board now.
    If your committee deems it necessary to effect cost savings 
by mandating across-the-board cuts, I ask you to take into 
consideration what effect that will have on personnel and take 
other actions to ensure that we have the necessary resources in 
order so that we can continue doing our work. For example, if 
cuts were made on the basis of actual expenditures for 2012, I 
believe this would have devastating impact on our committee. 
Our 2012 actual expenditures, in my view, do not provide an 
accurate representation of our resources requirements. If you 
look at, for instance, on our staff, at one point in time we 
had a 50 percent vacancy rate. We have hired several new staff 
members in the last month, but we still face gaps in areas such 
as oversight and investigations, one of the most critical 
functions, especially in the light of VA's transformational 
efforts. Without the proposed payroll I will be forced to 
reduce salary and even lay off staff.
    While I understand the fiscal pressures faced by all of us 
and by our country, I respectfully request that you support our 
proposed budget level so that we can play our critical role and 
essential role in supporting those who have served this great 
Nation of ours. And with that, Madam Chair, I yield back.
    [The statement of Mr. Michaud follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.038
    
    [GRAPHIC] [TIFF OMITTED] 80285A.039
    
    [GRAPHIC] [TIFF OMITTED] 80285A.040
    
    The Chairman. I thank both the chair and the ranking member 
of the Veterans' Committee for coming before us and laying out 
your case, and think you have made a very strong argument. I 
often think to myself that I think a society, quite frankly, 
can be measured in large part by how you treat the vulnerable 
amongst us. I always say seniors, children, and our veterans. 
And that particularly so, I think, with all of the brave men 
and women coming back. Any time any of us thinking we are 
having sort of a bad day, we could just take a stroll around 
the physical therapy ward in Bethesda and see what is happening 
there, or so many of our VA hospitals throughout the entire 
Nation.
    And I was sort of just looking at the detail that you all 
submitted here for your various field trips. And I guess I 
would just--field hearings, I should say--I should just applaud 
you for, I mean, every one of them is at a VA hospital 
somewhere practically, which is so important that you are able 
to get out there and see exactly what is happening there or at 
our cemeteries, national cemeteries for the VA, et cetera. I 
think those are very important things for you to be doing.
    And as we are looking through your budget, I also just want 
to say I think you are talking, Chairman, about how you upgrade 
about a third of your equipment each time. That is, I think, a 
very good way to, I mean, you can't really do it all at one 
time, but when you do those kinds of things in that very 
practical manner it is a good way to upgrade equipment, I 
think.
    And the only thing I would say, I don't know if this is a 
question or observation or just sort of throw something out to 
you, as you are looking at the possibility of utilizing new 
technology for the committee, where our committee may be able 
to help resource you a bit with various things, whether it is 
using cloud computing, even House-wide subscriptions, there are 
a lot of areas where you might be able to save a little bit, if 
you are not utilizing some of the various things. And we are 
really going to make a big push on trying to do different 
things here in-house that would save the committees, you know, 
duplicative kinds of fees, et cetera, so you can resource 
yourself with staff, making sure you keep, you know, 
particularly on a committee like yours, that you keep the kind 
of staff that you have the institutional knowledge, people that 
understand the systems, and the bureaucracy and the whole maze 
of what is the Veterans Administration, sometimes how important 
that is. So we want to help you there. If there anything at all 
that----
    Mr. Miller of Florida. No. I appreciate the suggestion as 
well. I believe that the House cloud is a great way to minimize 
space being used by some very large servers that are in our 
committee spaces, as well as utilizing a House-wide LexisNexis 
subscription if offered. We use LexisNexis quite frequently. 
And so I appreciate that and look forward to any help that your 
staff can give our staff. We appreciate it. And you will also 
notice on the field hearings that it doesn't matter if it is a 
Democrat district or a Republican district, we will go. If it 
needs to be done, if we need to do a hearing in a specific 
facility, my ranking member and I have made an agreement that 
we will go wherever the committee is needed and partisanship 
aside. We are truly one of the most bipartisan committees on 
the Hill.
    The Chairman. Appreciate that. And I would recognize my 
ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chair.
    And thank you for what you do. Unfortunately our veterans 
are getting larger and larger and larger, and we are trying to 
shrink to smaller and smaller and smaller. And I would also 
like to applaud you for your field trips, because you are 
telling our men and women that are in harm's way coming back 
that we do care. And you are giving them a platform and a 
reason and be able to let us know just what is on their mind 
and be able to talk to congresspeople to show that they care.
    My question is that--and I heard that you have to lay 
people off or maybe maintain some people at a lower salary--
well, when we have cut our staff it makes it difficult for them 
to be able to stay here because they can--and I know they are 
dedicated, they all are--but they can make much more money out 
there in the private sector doing what they are doing for us. 
So it is tough to keep them, and then we cut them, it gets 
tougher, and then, if you have to replace them, to find people 
with their expertise and you can't pay them enough money to 
lure them back in and you lose that expertise that they have 
and it is hard to do that.
    So have you had that problem with people that I know they 
are staying on, but maybe it would be nicer to attract other 
people with the expertise, you know, the institutional 
knowledge, that you keep them instead of having them lured away 
to the private industry? And then hiring other people at a 
smaller amount of pay that they could probably make in the 
private industry. That is my problem when we do these cuts. And 
we are all staff driven, we are all staff driven, you know. And 
if we can't attract the best and the brightest to do the most 
important work that we do, we have to take a look at that. So 
is there any problems, do you find that a problem when people 
are here, to keep them, and people coming in, to get someone 
with the right expertise?
    Mr. Miller of Florida. The majority has not been as much of 
a problem. Obviously we were growing our staff when we took the 
committee over a couple of years ago. I know it was very 
different for the minority because they do have some senior 
individuals that have been there for an extended amount of 
time. But your comments are well taken. We do have a lot of 
very qualified staff that have serious expertise in their 
various areas, and I would not be surprised at all if they are 
not contacted on a weekly basis by outside groups trying to woo 
them away from Capitol Hill. I think we are both very fortunate 
in the fact that the folks we have on our staffs are very 
dedicated to the task that we have before us. But for us it 
hasn't been an issue. I am sure it is a little different for 
the ranking member.
    Mr. Michaud. Thank you very much, Mr. Ranking Member, for 
that question. It is a little bit different for the minority. I 
have reduced staff salary already this year in anticipation of 
a freeze or a cut on our staff side. In addition, I was able to 
hire someone, brought in just actually this week, significantly 
below the standard salary for that position. It is a big 
concern that I have. When you look at VA, as you heard from the 
chairman, it is the second-biggest agency is in the Federal 
Government. And I am very pleased to have the talented staff 
that we have on board. My new staff director actually was the 
deputy under secretary for policy over at the VA. She knows the 
VA system very well. She worked on the Hill as well. And she 
can get a job pretty much anywhere she wants to.
    Likewise, my new staffer that I just brought, who was the 
national service officer for the American Legion and the VFW 
and worked under Secretary Hickey, which when you look at the 
huge backlog claims that is out there, we need to know what VA 
is capable of doing and be able to change the direction and use 
the finite resources VA has.
    As I mentioned, I just came on board as ranking member this 
year, and I think we can do a lot more to make VA a lot more 
efficient, such as reorganizing the VA system. I have some 
ideas how we might be able to do that, but that is going to 
take staff time and energy because I am sure the VA probably 
will not be as responsive to those changes to make them more 
efficient.
    On the benefits, the Veterans Benefit Management System, 
yes, it is technology, a computer system, but you also have to 
look at policy changes and how can we improve that to help with 
that backlog, and that is going to take time, effort to do 
that, and that is why we need really good staff. And I am very 
concerned, since I have reduced salaries already this year 
among the minority.
    Mr. Brady. Thank you, and thank you for all you do, and 
thank you for being here today.
    Madam Chair, I have no other questions.
    The Chairman. I thank the gentleman, and I thank you both 
again. And just talking about the VA hospitals, when we think 
about sort of the signature wound of this theater, the PTSD, 
and how many are coming home with that that have flooded our 
hospitals. And my husband is a Vietnam veteran and I have told 
him. In Vietnam you would have died with those kinds of 
injuries, but now because of the triage and the ability to get 
them to Germany, to get them to Bethesda within 24, 48 hours 
they live, which is a wonderful thing, but we have got to make 
sure that our VA hospitals are running to the very best of 
their ability to be able to treat these brave, brave wonderful 
patriots as they come back. We certainly appreciate your 
service and your staffs as well, and you have made a very good 
case here today, and we certainly, the committee, will take all 
of that under consideration. Thank you so much.
    Mr. Miller of Florida. Thank you.
    Mr. Michaud. Thank you.
    The Chairman. The committee now welcomes Chairman Rogers of 
Michigan and Ranking Member Ruppersberger of the House 
Permanent Select Committee on Intelligence. And again the 
official reporter will please enter a page break. We are going 
to a new section.
    The Chairman. The House Intel is charged with the oversight 
of the United States Intelligence Community, which includes the 
intelligence and intelligence-related activities of 17 elements 
of the United States Government and the military intelligence 
program. And this committee just wants to welcome both of you 
gentlemen, and we look forward to your testimony, and we have 
reviewed what you have submitted thus far and look forward to 
hearing a little bit more from you. And at this time I would 
recognize Chairman Rogers.

STATEMENT OF THE HON. MIKE ROGERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Rogers. Thank you, Madam Chair. And it is exceptionally 
good to see you there in the chair this year. Congratulations.
    I can go through the whole comments, Madam Chair, or I 
thought maybe I would just, you have my statement, maybe I 
would just cover a couple of quick points I think are 
important, and then, I know my ranking member, and we are 
completely on board together in this presentation, and then 
maybe take some questions if you have them.
    A couple of things I think it is important to point out on 
the committee. First of all, all of our staff, including our 
research and executive assistants, are required to obtain and 
maintain a top secret special compartmented information 
clearance. And because of the committee's security requirements 
and restrictions, we are not able to supplement our staff with 
summer or academic year interns or law clerks, we just don't 
have the same capability or flexibility of other committees. As 
you can imagine, this limits the hiring pool to those who have 
and are able to qualify for the highest security clearances and 
requires us to pay higher salaries. We hire program managers. 
We have very few junior staff on our committee. We hire 
individuals per program, FBI, CIA, NSA. On average they have 19 
years experience in the intelligence community, have the 
ability to get a clearance. So we can't really bring them in at 
the lower pay scale, would not be fair, A, and we would not 
attract any of the candidates that we need to be professional 
staff to do this oversight.
    So the committee was able to absorb in the 112th Congress 
an 11 percent cut. It would be very, very difficult for us 
moving forward at this point. So we tried to find efficiencies. 
We did, we think, find efficiencies, that we could kind of 
wring out some savings in the committee. But now it is getting 
to the point where we can't staff every program that we have at 
the requirement that we would need, the requirement meaning the 
individual that has the right set of, A, clearances and, B, 
experience and capabilities to perform the function. So you can 
imagine if you are going to walk into the CIA, and FBI, and 
NSA, if you are going to have the credibility that you need, 
you need to have people who have the credibility to walk in the 
door.
    And just where we are heading from here and where we have 
already seen some slowdown, we are continuing our review on the 
Benghazi terrorist attacks and it is going slower than we want 
because we can't apply the right personnel resources to the 
task. The follow-up investigation to the national security 
threats posed by the Chinese telecommunications companies is 
going to require more staff application which would take away 
from other programmatic needs. The review of the Intelligence 
Community support to the ``CFIUS'' process. You and I know this 
better than anyone with the sale of A123 batteries to China. 
And if we don't get this review and begin to incorporate 
intelligence concerns on these matters we are going to lose 
more great American technology, that taxpayers paid for, to 
countries like China.
    Perform a comprehensive review of the recently proposed 
Defense Clandestine Service, which is intended to completely 
reform DOD's human intelligence collection activities, we have 
lots of concerns. It is going to be manpower intensive. Pursue 
the passage of a cybersecurity-related information sharing 
bill, and establish a business advisory team to propose 
additional reform and integration of the Intelligence 
Community's organizational and IT structure.
    So we need to do all of these things all at the same time. 
And right now we are not at our full capacity based on the 
limits that we have had by previous reductions. So at some 
point we begin to reduce our capability to do the required 
oversight of our committee. And I am all for cutting waste and 
I think we have stepped up to the plate. Matter of fact, the 
ranking member and I have found about $3 billion across the 
Intelligence Community that we have been able to save taxpayers 
over the last few years and still maintain a robust mission, 
and we have done that on a reduced committee budget.
    I do believe that the number that we have proposed today 
would at least allow us to fill all of the slots that we would 
be minimally required to move forward on the issues that I just 
talked about and then maintain current counterintelligence 
oversight operations, which we do now regularly, covert action, 
the most sensitive things our committee does on a regular 
basis, daily for staff, weekly for members, monthly and 
quarterly for the committee. All of those things still have to 
happen. And by the way, we are going to produce a budget 
authorization bill here and get it out on the floor in June. 
And it all happens at the same time.
    If you look at our numbers compared to other committees, I 
just don't think it meets the priorities of national security 
if you are talking about reducing our ability to do that as we 
speak. So I respectfully submit that testimony, ma'am, and I 
know you have a lot of difficult challenges here facing where 
you put your resources. I hope you will consider the 
Intelligence Committee's needs in the national security 
structure and the importance of our oversight in those 
deliberations.
    The Chairman. I Thank the chairman.
    [The joint statement of Mr. Rogers and Mr. Ruppersberger 
follows:]
[GRAPHIC] [TIFF OMITTED] 80285A.041

[GRAPHIC] [TIFF OMITTED] 80285A.042

[GRAPHIC] [TIFF OMITTED] 80285A.043

[GRAPHIC] [TIFF OMITTED] 80285A.044

[GRAPHIC] [TIFF OMITTED] 80285A.045

[GRAPHIC] [TIFF OMITTED] 80285A.046

    The Chairman. And the chair now recognizes the ranking 
member.

       STATEMENT OF THE HON. C.A. DUTCH RUPPERSBERGER, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Ruppersberger. A lot of what the chairman said I don't 
want to repeat. I think the first thing in the last 2 years--
6.4 percent, but now where we are in the world responsibilities 
Intelligence Committee we really need to--3.2 percent increase 
from 2012.
    Now, what are the reasons for that? The Intelligence 
Committee does oversight of all the intelligence agencies and 
we also do the budget. We have right now one of the most 
serious issues before us, are cyber attacks from the Chinese. 
The Chinese have stolen billions of dollars from us in the last 
couple of years. Now, our committee and Chairman Rogers and I 
together have investigated the Chinese, we are calling the 
Chinese out, but there is a lot of sophisticated cyber attacks 
that are happening.
    We are worried about right now Iran, and we know cyber 
attacks are coming from there, destructive attacks, because 
Iran in my opinion is a robust rogue terrorist country, and 
they don't like the United States. Very sophisticated, and the 
people that we have on our staff who oversee all of this have 
to be sophisticated, they have to have the top clearances. And 
they could go out and make a lot more money in other areas. So 
we can't afford to lose people.
    We also are allowed as of this time, which probably is not 
enough based on all the things we are doing, 44 staff. We are 
29 right now and we are really not asking for anything more, 
maybe 1 or 2. I just made a replacement as far as my deputy who 
oversees. And right now if this occurs I won't be able to hire 
a deputy. We won't be able to do the things we need to do. 
People on our staff go, they travel to the front line, Iraq, 
Afghanistans, the Pakistans and those different areas. So we 
are saying from a national security point of view it is very, 
very important that we allow to do the things we need to do.
    I think I can stop there because the chairman has addressed 
the issues basically. It is a priority of the national security 
and we feel we have maintained our budgets the last couple 
years. Also this committee, until Chairman Rogers and I have 
gotten into the leadership, for almost 7 years they weren't 
able to pass a budget. This is important because the stakes are 
so high that we are able to do the correct oversight and that 
the agencies have the confidence in our committee to move 
forward. But if we don't have the ability, with 29 people, to 
oversee the entire Intelligence Community.
    The other issue I want to get into, because people don't 
talk about it a lot, and that is the issue of space. One of the 
reasons we are the most powerful country in the world is 
because of our space program. As a result of what the Russians 
did with Sputnik, that scared the United States and got us to 
worry about the Russians controlling the skies. So JFK put 
billions of dollars into space, and we have spent more on 
space, which is paying off now, than any other country. The 
Chinese are aggressively pursuing space, they are going to the 
moon and they are attempting to develop a control program. We 
can't let that happen, we can't be weaker. Space and cyber and 
all these things come together. The average person doesn't 
realize the GPS systems, all the things that are occurring. And 
that doesn't even include the intelligence we are getting to 
see what North Korea is doing, seeing what Iran is doing, and 
all these other areas.
    So we are asking just for a small group. We are all 
fiscally responsible, we have cut billions of dollars. And 
again in the last 2 years we have cut 6.4 percent. But where we 
are as a country now and where the threat is, we are asking for 
3.2 percent over 2012. Thank you.
    The Chairman. Thank you both. You made a very compelling 
case. And I think about you can have all the conventional 
armaments that you want, that you could possibly buy, but there 
is no second for human intel, there is just no second. And that 
was a very vivid demonstration, whether it was bin Laden or 
Saddam even. I mean, all of that was really human intel.
    In fact, let me also just compliment you, I am not just 
saying this because you are sitting here, but it is widely 
acknowledged throughout the Congress of how you two gentlemen 
have worked together in such a bipartisan way on our 
commonality there for national security through the 
Intelligence Community and what you have done there. But you 
just talk to any of the Joint Chiefs or anybody, you talk about 
what keeps them up at night, it is cybersecurity and the 
ability for them to be hacking in. And when you see some of our 
friends like China actually using their intel, their military 
and their intel, their intelligence, to take our intellectual 
property and various things, it is really quite disconcerting.
    So I think the kind of oversight that you are producing, 
and I appreciate the cuts that you have taken in the past, as 
you have pointed out, and as you are looking, and as going 
forward you do have some unique challenges I think on your 
committee and your priorities, like a cybersecurity bill and 
some of these various things that certainly this committee will 
take into account. You are a smaller committee, really, from 
your budgetary standpoint, et cetera. And like all committees 
really it is principally staff, your expenditures.
    But one thing that I would just sort of throw out, either 
as an observation or sort of an offer to you, if there is 
anything that our committee can do to assist you resourcing 
when you are utilizing on the committee some new technologies, 
whether that is cloud computing, whether it is House-wide 
subscription services, I mean, you can save really some dollars 
there that you could put into getting yourself a deputy and 
make sure you have the right people that you need on staff when 
you are hiring somebody at that level to be able to do the kind 
of oversight we have tasked your committee with. So if there is 
anything at all that our committee can do to assist you, have 
your staff talk to my staff and we certainly want to do that.
    Mr. Rogers. Five bucks under the mattress, we will take it.
    The Chairman. And I know that is true about you.
    Mr. Ruppersberger. You kind of said what keeps you up at 
night. We kind of say a joke. Three things that keep us up at 
night, Mike and I, and we are also the gang of 8: spicy Mexican 
food, weapons of mass destruction, and cyber attacks. Those are 
the two areas that are really difficult. But thank you for 
those comments and we appreciate it.
    The Chairman. Thank you. And I would recognize our ranking 
member.
    Mr. Brady. Thank you, and thank you for being here today, 
appearing in front of us, and thank you for the job that you 
do. You have answered my question.
    Mr. Ruppersberger. Do you have your mike on?
    Mr. Brady. It is supposed to be on. Thank you. You can't 
hear me? You can't hear me say thank you? You want to hear it 
again?
    You answered my question about being able to hire quality 
people and then be able to keep quality people that are going 
to take a pay cut that are already hired. And I think that it 
is incumbent upon ourselves and this committee to make that 
point extremely hard as it pertains to your committee, because 
it is awful important.
    Thank you. And I have no other questions, Madam.
    The Chairman. Thank you both very much. Again, you have 
made a really compelling case and we are going to take 
everything you have said into serious consideration, do the 
very best that we can for you.
    Mr. Rogers. On the IT front, we have made significant 
investment in technology. We are trying to find those resources 
where we can, but one of the problems we have on the IT front 
is we maintain both classified servers and unclassified 
servers. Our IT expense is actually higher than the average 
committee, there is only one other that I can think of that 
might even come close, that might be Armed Services, just 
because of the nature of the material that we have and the 
obligation to secure that material. So we do have that added 
cost that I don't think was factored in originally when they 
designed the committee.
    The Chairman. Okay, very good. Thanks so much, gentlemen.
    The committee now welcomes Chairman Issa and Ranking Member 
Cummings of the Committee of Oversight and Government Reform. 
Again the official reporter will enter a page break who are 
making the recordings there.
    The Chairman. The Committee on Oversight and Government 
Reform has jurisdiction over the District of Columbia, the 
government procurement process--if you could close those back 
doors there please, thank you--Federal personnel system, the 
Postal Service, and other matters. Its primary responsibility 
is oversight of virtually everything that the government does 
from national security to homeland security grants, from 
Federal workforce policies to regulatory reform, information 
technology, procurements at individual agencies, to government-
wide data security standards.
    Again, I am sure in the 113th you are going to be look at 
rooting out waste, fraud and abuse, and those kinds of things. 
And we certainly look forward to both of your testimonies here 
today, gentlemen, as the committee takes into consideration the 
challenges that your committee is facing as we go forward. And 
with that the chairman would recognize the chair of the 
Government Oversight Committee, Mr. Issa.

    STATEMENT OF THE HON. DARRELL ISSA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you, Madam Chair. And I would ask unanimous 
consent that our joint statement be considered for both of us.
    The Chairman. Without objection.
    Mr. Issa. And I will be brief in summarizing. Madam Chair, 
as you know from your time on the committee, the Oversight 
Committee is unique in that we do not oversee a part of 
government, but in fact all of government. It gives us a unique 
relationship with 73 inspectors general, the GAO, and 
particularly the ability to look for the kind of duplication 
and cross-agency waste that in fact is not a Republican issue 
or a Democrat issue, it is the result of decades of building 
infrastructure, whether it is 44 different programs to do the 
same thing but spread over multiple agencies, or in fact the 
stovepiping. For example, just in IT, information technology, 
we have $81 billion a year spent and yet we only have one CIO, 
one chief information officer in all of government that 
actually has budget authority. In agencies there were as many 
as 40-some individuals who have the term chief information 
officer with none of them having budget authority and none of 
them ultimately being accountable.
    Our committee over both Republican and Democratic chairs 
has found waste that is often as much as 1,000 times what our 
budget is, on our roughly $6 million budget, and we would ask 
that it be considered to be increased at a time in which what 
we are trying to do is find that waste, find that duplication, 
and in fact reverse it.
    Now, just to give some examples that both of us are aware 
of, we have found as a committee just today an example where 
one of our major Cabinet positions failed to even follow up 
until after the statute of limitations expired $415 million 
worth of overpayments, just one agency. That agency has a $2 
billion reduction, and one-quarter of it was not even pursued 
to try to get the reclaiming up until after statute of 
limitations expired.
    Earlier this month we became aware and worked jointly on a 
couple of States in which there were abuses under Medicaid. 
These were abuses in which the Federal Government was a willing 
participant in overpayments over a period of multiple 
administrations and nearly 2 decades. CMS, as the responsible 
party, was in fact going to negotiate and change over time 
payments on things that were supposed to be capped at $700 per 
person that we are paying as much as $5,700 per person, 
representing over $15 billion.
    We are not casting blame over anybody, but once discovered 
it was only through our committee's hard work that we were able 
to save at least $600 million just in this 2-year period by 
ensuring that that overpayment stopped immediately. It is those 
kinds of things that cause you to make an investment in our 
committee. And in fact the reason that we worked hard to make 
sure we had a joint statement is this is the part we primarily 
offer you. We are a unique committee, we look for waste, fraud 
and abuse, and at a time in which you are trying to find win-
wins, we can help provide them.
    The one point I hope we all have, and, Madam chair, you are 
very aware of this, we are not a spending committee, we are a 
savings committee, that is what we exist for. And we believe, 
just like the $2 billion that we invest in our inspectors 
general throughout government, that we save so many multiple 
times that, that any cutting back of the IGs is in fact, 
cutting back of us is in fact an opportunity to lose the very 
auditors that will guarantee you multiple savings.
    In closing, we see savings, we see opportunities. Our 
committee alone internally has managed to be able to do a great 
deal with less over the last 2 calendar years. I might note, 
though, there are some institutional changes that will be 
needed, such as going to VoIP rather than conventional phones. 
Going perhaps, and we have talked to your staffs, to per diem 
for many of the people who have government work being done on 
phones would cut our $80,000--just my side--$80,000 budget as 
much as in half by allowing us to provide similar reimbursement 
for government use on personal phones as we provide for 
government use on personal cars. That kind of change throughout 
Congress would represent millions of dollars a year in savings.
    As you know, currently only Members of Congress are allowed 
to have their phones, whether campaign or personal, on the 
House system. By definition, the secure question has already 
been answered by those personal phones being there, the dual 
use has been answered, but we haven't facilitated that and 
dozens of other savings that we believe we could have. We would 
like to work with the committee to allow us and other 
committees to find similar savings, but we must ask that you 
not allow the audit committee to be reduced when in fact we can 
return you more than 1,000 times our budget.
    [The joint statement of Mr. Issa and Mr. Cummings follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.047
    
    [GRAPHIC] [TIFF OMITTED] 80285A.048
    
    [GRAPHIC] [TIFF OMITTED] 80285A.049
    
    The Chairman. I thank the gentleman.
    The chair now recognizes the ranking member, Mr. Cummings.

  STATEMENT OF THE HON. ELIJAH CUMMINGS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cummings. Thank you very much, Madam Chair, Ranking 
Member Brady, other members of the committee. I am pleased to 
join my colleague, Mr. Issa, in our joint statement. And I just 
want to add a few things to what he has said.
    You know, just this morning, we had an interesting thing 
happen. We had the IG for the Department of Education come in. 
And it was so interesting how her situation sort of parallels 
ours. She basically said that because of the sequester and 
because of the cutbacks in her money, she can't do certain--she 
said she has some criminal investigations she can't even deal 
with. She doesn't have the personnel to deal with them and 
can't allocate people to do that.
    We have left some investigator positions open because we 
don't have the money already. When I first came into this 
position, my employees took--most of them took a 5 percent cut. 
And that was 2 and a half years ago. And the interesting thing 
is every time I come to these--not just this hearing, but I sit 
and I listen to what employees go through, you know, I think 
about the fact that these people come to work because they 
believe in government. I guarantee you, you ask your staff, 
those people sitting right behind you, them, those, they will 
tell you, it is not the money. It is not the benefits. It is 
because they believe in doing something for public service. And 
they want to make a difference. And we want to make a 
difference.
    And you know, Chairman Issa talked about the GAO, us just 
highlighting that, I guarantee you has had a phenomenal effect 
on every single agency. As a matter of fact, the President 
right around that time, remember, Chairman Issa, put out an 
order to reduce spending on these conventions; I think it was 
about 20 percent. Is that right?
    Mr. Issa. Exactly.
    Mr. Cummings. And so it does pay for itself.
    The question is, I think it is a key question that we need 
to ask ourselves, are we going to sit back and let these things 
go on? In other words, not have the watchdog or have a watchdog 
with no teeth? Or are we going to try to do the things that are 
practical and that make sense to save the resources?
    And again, Mr. Brady, Ranking Member Brady, I had an 
opportunity to kind of listen in on the last hearing, we are 
losing experienced people. They don't always tell you why they 
are leaving. But one of the words that I hear around here a lot 
is uncertainty. You know, when somebody is trying to raise 
their family, they figured out they are already sacrificing, 
they don't know whether they are going to have to take a cut in 
their pay, whether their pay is going to be frozen, they are 
trying to figure out how they are going to pay the babysitter 
and all that, the last thing they want is uncertainty.
    And I realize that we are going through some very, very 
difficult times. But at some point, we have got to ask 
ourselves where does the cutting get to a point where it 
basically becomes counterproductive? And I would plead with you 
to look at, not just our committee, but other committees so 
that Congress can do its job effectively and efficiently. It is 
one thing to have resources and spend them unwisely. It is 
another thing to have resources and spend them effectively and 
efficiently.
    Almost every single hearing that we have in our committee, 
I say to some point, I say it to my staff all the time, every 
action that we take should be done in an effective and 
efficient manner, period. And so I would just ask you to use 
that measuring stick when you consider the things that Chairman 
Issa said and things that I am saying and looking at what we 
are trying to do.
    Clearly, we have seen many cases, and I am sure you all 
have seen this, too, where because we mandate that witnesses, 
that people come before us, and maybe a subpoena or what have 
you, but one of the things that I have noticed and I know the 
chairman has noticed this, too, it is very interesting that so 
many changes happen just before the hearing. Folks come in, we 
may have been complaining for a year, and the next you know, 
because they know they are coming before us, the next thing we 
know, they have got all kinds of changes, things that we could 
not even legislate if we wanted to.
    And so again, I would hope that you would give 
consideration to our requests. And like Chairman Issa said, we 
actually need more money, not less.
    Thank you very much. I yield back.
    The Chairman. Thank you very much, both of you, gentlemen.
    I appreciate the ranking member making the statement people 
change just before they come before the hearing. It is amazing 
sometimes when the Sun shines in on what kind of behavior you 
find there. So your committee is an extremely critical 
component, really, of everything that goes on in government. 
And certainly during this time of trying to do more with less, 
it is very important that that kind of oversight is exercised 
appropriately to save taxpayers' dollars and to root out some 
of this waste that we find and fraud certainly as well. I would 
just, sort of looking through some of the detail that you 
offered up here to the committee, staff, I was just asking 
them, I was looking, and I made this comment to some of the 
other chairmen as well, you know, in an age of technology, 
where always the staff is the overriding principal percentage 
of your staff budget, of course, your committee budget, is 
staff, but when we think about some of the emerging technology 
and various kinds of things that perhaps our committee could 
help your committee with. I was going to mention cloud, but it 
looks like you are already using the cloud computing. But then 
you do something a little differently with Web development, 
which is something perhaps we could help you with. I am not 
sure. But I am just sort of offering this up. If there is 
anything that we can do from our committee standpoint of things 
that you might be doing that are duplicative on the committee 
that would free up a little cash for staff, et cetera, we 
certainly want to make that offer and be happy to talk to you 
at length or in any ways that we can help you with. We have 
some various enterprise solutions that the committee has been 
doing very aggressively. And we are going to really try to 
ratchet it up here on the committee as well.
    Mr. Issa. And Madam Chair, two areas, one I already 
mentioned, if we could switch to a reimbursement system so that 
particularly light users but people who do need to be--we can't 
mandate that private individuals spend money on behalf of the 
government. So when somebody has a requirement to be able to 
get House email or a direct voice contract, we only have one 
solution right now, which is to give them a government phone. 
If we were given the ability, like we do with an automobile, we 
don't buy an automobile for everybody that uses it for official 
use. Changing the system so that you could have an appropriate 
reimbursement for their shared use of their personal phone 
would be huge for us.
    Like I say, it would be a big chunk of my $80,000; 
commensurately probably about $40,000 for the ranking member. 
And that goes over all the committees.
    Secondly, you did mention cloud computing. One of the 
inherent problems we have in the House, and I don't want to 
disparage House Administration, your IT folks, but they have a 
``make the system bulletproof'' mentality. So the Wi-Fi, which 
is top notch, doesn't actually work that well, and it still 
causes people to use Mi-Fis and other technology. But also, we 
have no interactive capability. When we developed the Madison 
Project some time back, actually, I paid for it out of my 
personal pocket because there was no blog, if you will, no 
interactive capability possible within the House.
    One of the things that the House could do which could be a 
win-win is look at those .gov activities which do not have to 
be directly connected to the House system--in other words, our 
exchange system is deliberately behind a firewall with certain 
protections--but House activities, hundreds of them, including, 
to be honest, our personal Web sites, could all be bid out to 
any number of other services, and I don't want to name names in 
here, but you know the various companies that specialize in it.
    At the same time, it would allow for products to be 
purchased. And I will just give you one example. I am using 
Amazon for a reason because they were before our committee. 
Amazon actually sells its services in minutes of use. So some 
examples where we have very little use but we need a site, they 
are much cheaper than we would possibly be because we are 
paying for incremental use. And they are scalable to a huge 
amount at the time that there is a hearing or something else. 
At least beginning the process of asking how much of it doesn't 
have to be done behind infrastructure here would be helpful to 
us all.
    But at the end of the day, our problem is that we save you 
as much as a thousand times what we cost you, and part of it is 
because we leverage those 12,000 men and women of the Inspector 
General's Office. We really implore you to hold us accountable 
but in fact to realize that the kinds of savings we give is 
often in the entitlements, which aren't even subject to 
sequestration. If we save you Medicare or Medicaid money, it is 
money net saved in an area in which we don't currently have any 
authority to reduce spending, except by reducing waste.
    The Chairman. I really appreciate your idea about the per 
diem for the phones. I hadn't really thought about that. But 
that is a very, very good idea. It is something we are 
certainly going to take a look at.
    Mr. Cummings. Just the outside vendor, you know, we are 
paying an outside vendor for Web hosting services. And, you 
know, your Web assistance team might be helpful to us there. We 
understand they are still working through the little kinks and 
whatever. But that would be helpful, Madam Chair.
    The Chairman. Okay. Appreciate it.
    The chair now recognizes my ranking member, Mr. Brady.
    Mr. Brady. Thank you.
    Thank you both for being here today. And you made my point, 
and my question, are we attracting quality people? And when we 
attract the quality people, do we keep them, because we wind up 
cutting their salaries and they can make much more money 
elsewhere? So that is the point I keep stressing with every 
panel. Thank you. Thank you for being here. I have no more 
questions.
    The Chairman. Okay.
    Mr. Issa. Doesn't the freshman, Mr. Vargas, have a 
question?
    Come on, Juan, throw one at me, please. This is your first 
chance.
    The Chairman. Mr. Vargas of California.
    Mr. Vargas. Well, first of all, it is a pleasure to see 
you, Congressman Issa, from San Diego. It is an honor.
    My question is the question that the ranking member has 
already asked. I have been asking the same question. I 
apologize I wasn't here earlier for your full testimony. But 
are we able to retain the excellent personnel that you have? 
And are we able to attract excellent personnel, knowing that 
they can go into the private sector and make multiples of what 
they are making in the committee?
    Mr. Issa. Well, Mr. Vargas, the fact is that the ranking 
member said it very well, given a fairly stable budget and 
predictability, we can. We are always going to have the reality 
that, for example, the ranking member's staff director was 
hauled away by the President when he got sworn in. I just lost 
my general counsel to the Leader's office. I lost another chief 
individual to Senator McCain's office. Mobility occurs here.
    But we do maintain, on both sides of the aisle here, we 
maintain some very good and dedicated people. But we have to be 
able to tell them with some certainty how we are going to work 
for multiple Congresses. Because most of my people didn't come 
in with me. And I think the same is somewhat true of the 
ranking member. These are mostly career people. We have very 
few true political appointees. As a matter of fact, our head of 
all of our parliamentary activities and so on, she has 
transcended multiple administrations. She does a great job. Her 
team does a great job. That is one of the challenges. Career 
people, we want to maintain them. And particularly when you 
want to look at investigators who will investigate repeatedly 
areas like that. So it is a great question.
    We don't need a lot more money. What we would say, though, 
is that every time you give us more money, we can show you, 
through our oversight and investigations, where we will 
uncover--a hundred times is an underestimate--as much as a 
thousand times. And the same is true of the IGs, very 
documentable about how much we actually find that leads to real 
recoveries.
    Mr. Cummings. You know, I think that we can--there are 
always people coming along who I think want to move into 
government. As I said a little bit earlier, though, sometimes 
you don't really know why people are leaving.
    And you know, one of the things I have noticed, 
Congressman, and I talk about this to my constituents, that a 
lot of people who come to us are taking a pay cut. And a lot of 
them--the reason why I am so adamant about defending public 
employees is because they tell me things like this, they want 
to feed their soul. And so they want to do something that is 
meaningful. They want to, at the end of the day, be able to 
look in the mirror and say, you know what, I made a difference 
for a whole lot of people.
    And I just think in fairness to them, those kind of people, 
we do need, as the chairman said, we need to provide some type 
of certainty. I am sure my employees now are just wondering, 
you know, what is going to come out of this hearing? Who is 
going to have to go? Are their paychecks going to be slashed?
    And I always try to keep in mind that a lot of these people 
are struggling. You know, I mean when somebody, one of my 
assistants was telling me what it costs for her just to have a 
babysitter--I mean, I don't know if you know this, but a 
babysitter is almost as much as it costs to go to college. And 
so you have two or three kids, forget about private schools and 
things of that nature.
    So what I am saying is I think we owe them that. They have 
dedicated themselves to public service. They want to make a 
difference. They give their blood, sweat and tears to our 
Nation. They never get any medals, never get any awards. But 
the least thing we could do is give them some kind of 
certainty.
    Mr. Vargas. Thank you.
    Again, it is a pleasure to see you. They are well trained I 
know when they go along.
    Mr. Cummings. Oh, yeah. Oh, yeah.
    The Chairman. Thank both the chairman and ranking member.
    Mr. Cummings. That is why everybody steals them.
    The Chairman. Thanks so much, gentlemen, for your 
testimony. We certainly will take everything under advisement 
here. You made a very compelling case. Thank you very much.
    Thank you very much. The committee now welcomes Chairman 
McCaul and Ranking Member Thompson of the Committee on Homeland 
Security. And again ask the official reporter to enter a page 
break as we move into the next committee here.
    The Chairman. This committee was established in 2002. And 
it has jurisdiction to provide congressional oversight for the 
U.S. Department of Homeland Security, certainly to help better 
protect the American people against a possible terrorist 
attack. The committee's priorities for the 113th are to 
continue to prevent terrorist attacks on our homeland, secure 
our borders, protect against cyber attacks, manage the 
Department of Homeland Security with a business model approach, 
and to ensure our counterintelligence efforts are as effective 
as possible. And I am delighted to have both of you gentlemen 
here before this committee, since I have an opportunity to 
serve on the Homeland Security Committee as well.
    And I certainly at this time recognize the chairman, Mr. 
McCaul.

   STATEMENT OF THE HON. MICHAEL MCCAUL, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. McCaul. I thank you, Madam Chair Miller and Ranking 
Member Brady.
    I apologize for my voice. My five kids passed something 
onto me at home. I want to thank the members on the Committee 
on House Administration as well for the opportunity to testify 
before you today.
    You asked us to prepare three sets of potential budget 
allocations for the 113th Congress. The first represents a 
budget of actual funds spent in the 2012; the second an 11 
percent reduction in the 2012 authorized amount; and the third 
represents a 5 percent increase from actual spending in 2012.
    Before I address your requests, I would like to thank the 
committee for the funds the committee has already received to 
date, that we received in the 113th Congress. We recognize that 
in this current environment, every dollar we receive represents 
taxes paid by the American people. We are stewards of their 
money. And we are obligated to spend it wisely. And I am 
committed to doing so on this committee.
    Among our many responsibilities is an equally important 
obligation to oversee the Department of Homeland Security, 
which is the third largest department in the Federal 
Government, and help develop the laws and policies that guide 
DHS and help secure the Nation. I can think of few 
responsibilities more important to this Congress and this 
Nation.
    So I am here to express gratitude. I am also here to 
explain why we must not allow any further reduction in the 
committee's funding. As you may know, during the 112th, the 
committee experienced a 14 percent reduction in its funding 
levels from the previous Congress. As a result, the committee's 
majority and minority staffs had to reduce the number of its 
personnel, reduce staff salaries, left unfilled staff positions 
vacant, ended stipends for interns, and limited the committee's 
travel and purchases in a fiscal way.
    Currently, the Committee on Homeland Security is operating 
on a budget below that allocated, and this is a very important 
point, below that allocated in 2006. Madam Chair, that was 7 
years ago. And I would submit the threats are much greater 
today than they were 7 years ago. And at the same time, our 
current staffing levels include 15 additional personnel from 
the 2006 levels.
    You all know the oversight and legislative responsibilities 
of your respective offices and committee assignments. These 
efforts require significant resources if we are to fulfill our 
responsibilities in a meaningful way. As the new chairman on 
the committee, I feel a particularly strong obligation to 
ensure we fulfill these in as robust manner as possible. To 
that end, we are focusing on developing strong legislation in 
areas related to cybersecurity, border security, and DHS 
authorizations. We will continue and enhance the committee's 
oversight of the department as a whole, with a particular 
emphasis on its management practices. This is a primary focus 
for the committee. DHS is plagued with inefficiencies in its 
procurement processes, technology development, human resource 
practices, and general management. DHS lacks a permanent 
general counsel, inspector general, and a commissioner for 
Customs and Border Protection to just name a few examples of 
the vacuum in senior management levels.
    The situation is unconscionable. It needs to be addressed. 
I believe it is time that DHS start acting as more than just a 
holding company for 22 separate agencies. It is time for DHS to 
act and function as a unified department. Conducting the 
appropriate oversight and developing legislation to help DHS 
achieve that mandate is among my highest priorities. This 
effort requires sufficient staffing and resources to do so. Our 
people are our most precious assets, and the committee has an 
excellent staff on both sides. We may not always agree on 
policy all the time, but in a true spirit of bipartisanship, we 
make every effort to minimize the committee's resources where 
possible. The committee has made every effort to limit its 
expenses. Indeed, we will soon return nearly $400,000 of our 
budget from 2012. But please do not punish us going forward for 
acting in a fiscally responsible manner. To limit our budget 
for 2013 to the amount spent in the 2012 represents a reduction 
of 6 percent from last year. An 11 percent reduction from our 
2012 authorized budget represents nearly $850,000 in this 
committee's budget.
    You will hear more specifically from my ranking member, Mr. 
Thompson, on how these reductions will impact the minority 
staff. But I can tell you, on the majority side, we already 
experience difficulty in offering competitive salaries. And we 
have lost a couple really good hires this Congress because of 
that fact. With further reductions in our budgets, we will have 
to continue to leave unfilled positions vacant, limit our 
ability to travel on committee business and conduct field 
hearings, and further limit our ability to replace aging office 
equipment and limit the purchase of necessary supplies, 
technology services, and other things.
    DHS includes nearly 225,000 personnel at 22 separate 
agencies operating across the Nation and across the globe. The 
department's creation was an enormous undertaking, with huge 
management and programmatic challenges. Recognizing those 
challenges and the time it would take, the Government 
Accountability Office in 2003 determined that the creation of 
the department would be high risk, meaning the potential for 
waste of taxpayer dollars was likely. A decade later, GAO has 
again concluded in its recently released biannual report that 
DHS remains at high risk in implementing key management 
initiatives critical to its mission outcomes. As the report 
noted, serious deficiencies still exist in how the department 
buys technologies to secure the homeland, manages its finances 
and data, and deals with low morale scores.
    To further highlight the need for rigorous oversight, in 
2004, DHS had a budget of $39 billion. Now it has a budget at 
the department of $60 billion. Even the department's most 
ardent supporters would not argue that it is where it needs to 
be. Much work remains to be done to ensure the department 
continues maturing and further enhancing the Nation's security. 
Our committee has a total authorized combined staff of 75 to 
oversee the department. And no matter how you slice it, those 
numbers are already pretty slim to do the committee's work in 
an effective and meaningful way.
    Madam Chair and Ranking Member Brady, I thank you for the 
opportunity to speak with you today, and I am happy to answer 
any questions you may have. Thank you.
    [The statement of Mr. McCaul follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.050
    
    [GRAPHIC] [TIFF OMITTED] 80285A.051
    
    [GRAPHIC] [TIFF OMITTED] 80285A.052
    
    The Chairman. Thank the chairman.
    And I would recognize now at this time the ranking member, 
Mr. Thompson.

 STATEMENT OF THE HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Chairman Miller and 
Ranking Member Brady, for this opportunity to talk to you about 
committee funding for 2013.
    In 2011, the Committee on Homeland Security's budget was 
cut by 6.8 percent. Last year, our budget was cut again by 6.4 
percent. Each year, those were between majority and minority, 
according to our two-thirds/one-third share. Yesterday, we 
learned that our 2013 allocation would be further reduced by 
8.2 percent or more than $200,000 for the Democrats. This cut 
would put the committee more than 20 percent below its funding 
level for the 111th Congress.
    After reducing the size of my staff, cutting salaries, 
streamlining office expenses, and curtailing travel, it is fair 
to say we are doing more with less. Last year, the committee 
worked hard to see that the Department of Homeland Security 
received adequate congressional oversight. We pushed for 
implementation of the hundred percent cargo screening mandate 
signed into law in 2007. We forced the agency to be more 
responsive to Member requests after Hurricane Sandy hit the 
Northeast. We called for transparency within the Secret Service 
after its latest scandal. We also worked to improve our border 
security both on the southern and northern border, Madam Chair, 
and strengthened our cyber networks, work that will continue 
this Congress.
    These efforts and many others are taking place at a time 
when we must remain as vigilant as ever to protect the 
homeland. In order to do that, we need sufficient resources. I 
would like to be able to have staff to travel and not be 
limited to what they can learn in the confines of Washington, 
D.C. I would like to be able to replace aging equipment later 
this year. I would also like to remain a competitive choice for 
bright young staffers who have options for where they will 
work. Further budget cuts would complicate these goals.
    Thank you, again, Madam Chair and ranking member, for the 
opportunity to testify. And I look forward to answering any 
questions that you may have.
    The Chairman. I appreciate, gentlemen, both of you coming, 
and your testimony here today. And I appreciate how fiscally 
conservative the committee has been in the past, and your 
comments not to penalize you for showing that good stewardship 
of the resources that the House has given the committee over 
the past.
    One thing I would say, and I appreciate very much the 
chairman and both the ranking member mentioning some of your 
oversight responsibilities of the committee in particular. You 
think about the committee, really, and the Department of 
Homeland Security forming, after 9/11, 22 various agencies and 
is now one of the largest agencies within the government 
structure, and still I think both sides would agree probably 
not the best cohesive management structure, so the oversight is 
very, very necessary. And I appreciate those kinds of things.
    One thing I had said to some of the other committees, and I 
think it is true with this committee as well, if there is 
something that we can do from the House Administration 
Committee, various kinds of enterprise projects that this 
committee has undertaken in the past and we intend to ratchet 
up now that may have application within the Homeland Security 
Committee for a whole raft of various things, for instance like 
the cloud computing. I was looking at some of the detail that 
you have given to the committee here. You actually, I think the 
committee right now is paying for private vendors for three 
different services actually that the House could possibly 
provide to the committee. So I am not so much sure if this is a 
question or something I am sort of throwing out there we want 
to work with you on. Whether it is cloud computing, systems 
management, and your Webcasting, and even archiving the videos. 
And the amount that the committee is spending on those kinds of 
services could be a couple of staff people I think even. So I 
am just saying perhaps there is something--and I may be reading 
it wrong--but as I look through some of the detail that we put 
here, I guess I am just offering if there is any area at all 
that the committee can assist you with, particularly as a new 
chairman while you take a look at all of these various things, 
we certainly want to be able to be in a position to do that, 
resource you as we can, certainly.
    Mr. McCaul. May I respond?
    Thank you for that offer.
    As you know, I am new to the chairmanship, so I am seeing 
this all for the first time, and I appreciate that offer, and I 
look forward to working, following up with you on that.
    In fact, when I asked about IT cloud, I was told the 
committee didn't have that, although I know from my own 
cybersecurity background that the House had an IT cloud. So I 
don't understand why the committees would be any different from 
that. And that is certainly something we can work on.
    The Chairman. Very good. I look forward to doing it.
    I would now recognize the ranking member.
    Mr. Brady. Thank you, Madam Chair.
    Just to thank you for appearing before us and testifying. 
And myself and Mr. Vargas are on the same page. We have the 
same concerns in mind. So, with that, I would like to yield my 
time to Mr. Vargas to share our concerns.
    The Chairman. Mr. Vargas.
    Mr. Vargas. Thank you, Madam Chair. And thank you, again, 
for your graciousness, Ranking Member.
    You really did answer my question. It was the issue of 
retaining personnel and also attracting personnel. I think the 
quote was that they are our most precious asset, is personnel. 
Then you did mention it has been somewhat difficult. I guess I 
would ask you to maybe expand a little bit on that.
    Mr. McCaul. Well, not to get into specific cases and 
names----
    Mr. Vargas. No.
    Mr. McCaul [continuing]. But we have one individual 
currently who has a very good background within the department, 
who works for a business consulting firm, as we look to hire a 
policy adviser on management issues, which, you know, is 
critical to this department. We have to oversee the third 
largest department in the Nation. So we thought it would be 
smart to bring in someone with not only DHS background but real 
world business management experience to help us, you know, in 
addition to the GAO and the IG, look at the department to find 
inefficiencies and how we can save the department money so we 
can redirect its moneys and efforts toward high priority issues 
like cybersecurity or like border security.
    Right now, I mean, candidly, I had the interview, offered 
him the job. I thought he had accepted. He is now on the fence 
because of the salary. So that is just one specific example of 
several where we may lose really good talented individuals that 
could help this committee do its job.
    And let me say, you know, Mr. Thompson has been ranking 
member for quite some time on the committee. I am new as 
chairman. But you know, this committee has gone through a lot 
of growing pains. We have had to, you know, defend our 
jurisdictional boundaries when other committees want to take 
advantage of it.
    I don't think we need turf wars after 9/11, particularly in 
the Congress. And we are just trying to do what this committee 
was originally designed to do and set up to do, and that is to 
protect the American people. And if we can't do that, if we are 
hamstrung from a budgetary standpoint and we can't fulfill that 
mission, it is not the department not doing it; it is the 
Congress not fulfilling its mission. And so I really appreciate 
you bringing up that question. Thank you.
    Mr. Vargas. Thank you, sir.
    Mr. Thompson. Well, the retention of qualified staff, as 
well as the ability to bring on qualified staff, is essential 
to the work of this committee. And you can only do that with an 
adequate budget. You pay for what you get. And if we are 
looking to be rigorous in our oversight of this department, 
then we need the ability to have a competent staff to allow 
this committee to do its work.
    Mr. McCaul. If I could follow up just to your point again, 
the amount of money that I think--and Mr. Thompson and I are 
committed to the accountability issue. We may disagree on some 
things, but not many. We fervently agree on the accountability. 
The amount of money that we can save the American taxpayer by 
doing our oversight responsibilities appropriately would be far 
beyond the numbers we are looking at on these sheets. A $60 
billion department, they have almost doubled in size since the 
inception, while this committee is going back to 2006 levels. 
So, anyway, thank you for the question.
    Mr. Vargas. No, thank you very much for your answers.
    Thank you, Madam Chair, I appreciate it. I yield back.
    The Chairman. I thank both the chairman and ranking member.
    Gentlemen, you have made an excellent case. And again, I am 
personally well aware of what your challenges are, as I am very 
proud to sit on the committee and work with both of you. And it 
is a very bipartisan committee, works extremely well. But it 
has huge challenges ahead. And so I am appreciative of that. 
And we will certainly take everything you said under serious 
consideration here. Thanks so much.
    Mr. McCaul. Thank you so much.
    The Chairman. The committee now welcomes Chairman Upton--
didn't mean to make you jump there, Mr. Chairman--and Ranking 
Member Waxman of the Committee on Energy and Commerce.
    Again, the official reporter would enter a page break as we 
go to the next group here.
    The Chairman. The Committee on Energy and Commerce has 
jurisdiction over the Nation's telecommunications, consumer 
protection, food and drug safety, public health research, 
environmental quality, energy policy, and interstate and 
foreign commerce. It oversees multiple Cabinet-level 
departments and independent agencies, including the departments 
of Energy, Health and Human Services, Commerce and 
Transportation, as well as the Environmental Protection Agency, 
and the Federal Trade Commission, and Food and Drug 
Administration, and the Federal Communications Commission, and 
on and on and on.
    I know I am missing a number of things. But this is a 
committee that has incredible challenges facing it in the 
113th, as you exercise your oversight and new legislation, et 
cetera. There is so much of the legislation that does come to 
the House floor that emanates out of your committee. And this 
committee is well aware of that and has evaluated the testimony 
and the backup for all of that that you have already given to 
our committee. We certainly look forward to your testimony here 
today and appreciate your attendance.
    With that, the chair would recognize Chairman Upton.

STATEMENT OF THE HON. FRED UPTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Madam Chair.
    I, too, apologize for my cold that I think I must have 
gotten from Mr. McCaul just passing through the door.
    You know, no one is immune from belt tightening, and our 
committee has taken our fair share of budget reductions and, 
obviously, will continue to do so. Like others, we absorbed a 5 
percent cut from our 111th congressional level and another 6.4 
percent cut in 2012.
    To absorb those cuts, we took a lot of steps. We left a 
number of senior staff vacancies unfilled. We have consolidated 
staff positions. We have made significant reductions in field 
hearings, site visits, all other types of travel. Reduction on 
many subscriptions. We have clamped down on office supplies. We 
purchased refurbished print cartridges. And we have moved to 
paperless hearings. I have told my members that they need to 
learn how to use their iPad.
    Those steps are also key to our planning for the 2013 
budget. We prepared two budgets, as you requested, an 11 
percent reduction from the 2012 authorized funding level, and a 
5 percent increase over actual 2012 spending.
    Needless to say, absorbing an 11 percent funding reduction 
on top of the cuts that we took over the last 2 years would 
affect our work. But we are going to do our part. Mr. Waxman 
and I are committed to working together on the types of 
operational savings that we outlined.
    However, in an 11 percent reduction you will see that it 
cuts deeply beyond operations and into personnel costs and 
essential functions. In contrast, any additional resources, for 
example, the 5 percent increase over the 2012 spending, would 
be used for targeted spending that would increase our 
legislative output and support oversight and investigations, 
particularly going after fraud and abuse.
    We have many important issues on the docket for this year, 
supporting and overseeing a dramatic shift in the American 
energy resources, reforming Medicare and Medicaid, finally 
reforming the broken Sustainable Growth Rate for Medicare 
physician payments, oversight and legislative solutions for 
public health threats, monitoring implementation of the health 
care law, modernizing environmental programs, assessing the 
challenges and opportunities facing American manufacturing, and 
identifying solutions to spur job growth, reassessing how our 
government uses scarce spectrum resources, and engaging the 
private sector and government in our efforts to improve 
cybersecurity.
    I note that Mike Rogers from Michigan serves on our 
committee.
    That is just a sampling of our plans. So we are going to 
make the most of our resources allotted to our committee.
    I would be glad to discuss in greater detail any questions 
you might have, and yield to my friend, Mr. Waxman.
    [The statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.053
    
    [GRAPHIC] [TIFF OMITTED] 80285A.054
    
    The Chairman. Thank the chairman.
    And the chair now recognizes the ranking member, Mr. 
Waxman.

  STATEMENT OF THE HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Chairman Miller, Ranking Member Brady, other 
members of the committee, I appreciate this opportunity to 
testify on the proposed budget for the Committee on Energy and 
Commerce in the 113th Congress. And I am pleased to be here 
with Chairman Fred Upton. We come with a united message.
    At the outset, I want to commend Chairman Upton for the 
fair way in which he has treated the minority last year. On our 
committee, the tradition has been that the minority gets one-
third of the resources after accounting for shared employees. 
Chairman Upton has followed that tradition. He has allowed the 
minority to control how we spend our budget to meet the needs 
of our members. And I greatly appreciate the comity he has 
shown us in handling the committee budget.
    We both are committed to working together to reduce costs 
sensibly and to operate as efficiently as possible. Like the 
majority, we have also reduced subscriptions, cut back on 
office supplies and remain focused on making sure that every 
penny in our budget counts.
    I support the chairman's proposal for paperless hearings, 
and I hope we can find additional ways to use technology to 
reduce our operating expenses.
    Despite our joint commitment to operate more efficiently, 
the big problem we are facing now is to meet our growing 
legislative responsibilities with a shrinking budget. We may 
disagree on the benefits of the Affordable Care Act, but the 
ACA is now the law of the land. The Energy and Commerce 
Committee is responsible for overseeing both the new health 
exchanges and the expansion of Medicaid. These two programs 
will dramatically expand our oversight responsibilities, yet we 
are being asked to do so with a shrinking budget and a smaller 
staff.
    We face the same problems in other areas of our 
jurisdiction. We have enormous energy challenges in the U.S. 
Yet, at the same time, we are being asked to respond to these 
growing challenges, our budget and staffing continue to be cut. 
Over the last 2 years, our budget has been cut by over 15 
percent in real dollars. That may be pennywise, but it is pound 
foolish.
    On the minority side of the committee, we have 39 staff 
slots. But if we have to operate with an 11 percent cut, as 
contemplated in one of the budget scenarios you asked us to 
complete, we will be able to fill only 80 percent of these 
positions. There is no way we can do our job ensuring that the 
taxpayers are protected with one out of every five slots 
unfilled.
    And I want to give you some concrete examples. The 
committee recently received an enormous set of documents from 
the Food and Drug Administration in response to our bipartisan 
investigation of the circumstances surrounding a deadly 
meningitis outbreak caused by contaminated drugs from a 
compounding pharmacy. These injections have so far killed 48 
people, sickened over 700 people in 20 States. We need to 
understand how this tragedy occurred and what role FDA plays in 
ensuring the safety of compounded drugs. Ultimately, our 
investigation will be critical to the consideration of possible 
changes to the FDA law to prevent a repeat of this tragedy.
    At the same time, in the wake of the Newtown tragedy, the 
committee is examining mental health, mental illness, violent 
behavior, mental health treatment and research, and Federal 
programs that provide care for the mentally ill. The goal of 
this effort is to provide recommendations to reduce violence 
and improve and enhance the capacity of the Nation's mental 
health system. Yet, on the minority side, we are going to be 
operating with only three professional investigators. That is 
not enough staff to meet these pressing responsibilities.
    I recognize that we are now living under the sequester. Our 
committee must do its part. But I hope you realize that further 
cuts to our committee would be counterproductive. The taxpayers 
need us to make sure our health, energy, communications, and 
consumer protection agencies are doing their job. Thank you for 
this opportunity to testify. And I would be happy to answer 
questions.
    [The statement of Mr. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.055
    
    [GRAPHIC] [TIFF OMITTED] 80285A.056
    
    The Chairman. Thank you, both of you gentlemen, for your 
presence here today and the good presentation that you have 
made.
    I guess one thing, and I sort of asked this of some of the 
other committees, as well as the ranking member, you mentioned 
particularly about the possibility of utilizing additional 
technology to save a little bit of cash. Maybe you can use that 
money toward staff. And you are saying one in five is vacant at 
this point, which is pretty high. I understand that, 
considering the kind of challenges you are mentioning. You 
mentioned about the meningitis. I think Michigan had the 
highest death rate, actually, of those folks. It has been a 
front page story all over our area. So I am very appreciative 
of what you are saying there as far as the oversight and 
investigating those kinds of things.
    But I am not sure if I am asking you a question or just 
offering, certainly, anything that we can do from the House 
Administration Committee to assist E and C with various kinds 
of technology. If I could, just a couple in particular, I was 
looking at some of the detail that you had submitted to the 
committee here. There are a couple of different things where 
you are paying a private vendor for some things that we may be 
able to help you with. Whether that is Web site development or 
systems management, a couple of those kinds of things, 
possibly. If you are satisfied with what you are doing, that is 
fine. But there may be areas where we are able to resource you 
a bit. And we want to do that. This committee has been very 
aggressive from the former chairmen and ranking members 
certainly who have been here, but we want to really ratchet 
that up a bit, too, particularly now with sequestration and 
these kinds of very restrictive financial world that we are 
living in right now. We think we may be able to help some of 
the committees. So I just throw that out there. If there are 
ways we can help, we want to.
    Mr. Waxman. Thank you.
    Mr. Upton. I would just note that improving the Wi-Fi 
system that we have on Capitol Hill would be of an enormous 
benefit. I know that when I sent the word out to our members at 
the end of last year that we were going to try to move to 
paperless hearings, so I brought my iPad in--and you know, we 
got some of the older Members in the House, the Dean of the 
House, John Dingell. We have got Ralph Hall, who will be 80--or 
excuse me, 90 years old on May 3rd----
    The Chairman. Oh, to be 80 again.
    Mr. Upton. They are both in their 80s now and moving on, 
which is a good thing in terms of age, better than the 
alternative, but they have to use an iPad. And rather than 
printing--you know, we have 54 members on our committee--54 
copies of the testimony of, you know, the two or three hearings 
that we have every day, it is a large resource. And so I 
brought my iPad in to do it the first time, guess what? I 
didn't get a signal. Couldn't get a signal in our hearing room 
from the service provider that I had. So improving Wi-Fi will 
be a big help, not only to just help reduce our costs but for 
our constituents who want to watch these hearings. We had a 
great one earlier today in Oversight on mental health issues. 
And again, being able to put that testimony on the Internet for 
anyone to watch as they watch C-SPAN to see what is being said 
is a tremendous advantage. And at the end of the day, saves us 
a lot of money. So that would be a big help.
    The Chairman. I appreciate that. I am making a note as you 
are talking about it. We certainly will look into that. It is a 
very good point.
    Mr. Waxman. I want to point out that when we tried to 
update our Web sites, we went to HIR. They have terrific people 
there, but they were so backlogged, it took us 18 months before 
they were able to help us. And we had to go to a private vendor 
for that. So maybe some of your offers of support would be very 
helpful to us. And we welcome it.
    The Chairman. We appreciate that. As a new chairman, I am 
going to take a look at that as well. So we appreciate those 
comments, sir. Because really, this committee has done 
remarkable work in the past. We always say the largest room is 
the room for improvement for all of us, right? So we just want 
to be able to resource you as we can. At this time, I would 
recognize the ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chair. Just to thank the 
chairman and ranking member for appearing here today and giving 
us your testimony. Thank you.
    The Chairman. You done? Okay. All right. I am back here 
telling the staff, did you take notes of those comments that 
they made? So very good.
    Mr. Waxman. Excuse me. I have just been informed that I 
said it was an 18-month, it was a 6-month to a 12-month delay. 
So anyway.
    The Chairman. Still.
    Mr. Waxman. I don't want HIR to----
    The Chairman. I know. We all went 18 months, oh, my gosh.
    Mr. Waxman. I added them up.
    The Chairman. All right. But still we are going to take a 
look at that, because we want to--I mean, this is the Members' 
committee, and the ranking member and I have had a lot of 
conversations about various things that we can do to help 
Members, majority, minority, and we want to be able to that. 
That is a long time to be waiting, 6 months, 12 months, right? 
We want to do better.
    So thank you. I appreciate both of you attending. Thanks.
    The committee now welcomes Chairman Royce and Ranking 
Member Engel of the Committee on Foreign Affairs. Again, I 
would ask the official reporter to enter a page break as we 
enter a new section.
    The Chairman. The Foreign Affairs Committee jurisdiction 
relates to our foreign policy, war powers, treaties, executive 
agreements, the deployment and use of the United States Armed 
Forces, the enforcement of U.N. sanctions, arms control, 
disarmament issues, the U.S. Agency for International 
Development, and foreign assistance.
    The committee's priorities for the 113th will be to 
continue to focus on the effectiveness of the U.S. foreign 
policy, the review of agencies and programs operating under 
permanent statutory authority, and the elimination of programs 
and expenditures that are inefficient, duplicative, or 
outdated.
    So we certainly welcome both of you to the committee here. 
We have already looked at your testimony that you have entered 
and some of the background for the various resourcing that you 
are asking for, for your committee's services. And this is an 
extremely important committee that you are the chair and 
ranking member of. We are well aware of that.
    So, with that, the chair would recognize the chairman, Mr. 
Royce, for his testimony. And we appreciate both of you 
gentlemen coming.

  STATEMENT OF THE HON. EDWARD R. ROYCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Royce. Thank you, Chairman Miller. We appreciate your 
patience with this and this opportunity, and Ranking Member 
Brady. We appreciate it very much to talk about our work.
    I am the new chairman of the committee. My colleague, Mr. 
Engel, is the new ranking member. So we are new to the 
positions here, but not to each other, having served together 
for many years, and having spent much time together on a recent 
CODEL. I am confident that we will have the strong working 
relationship needed to be a very effective committee.
    Madam Chairman, as a Member who has always acted and voted 
in a fiscally conservative manner, I would like to commend the 
committee for taking a close look at how the 2012 committee 
funds were spent before considering our 2013 funding. Budgets 
are tight for all Americans, and we must continue to set an 
example of fiscal discipline. As a new chairman, I didn't put 
together the 2012 budget. However, I have reviewed the numbers. 
And I believe that the committee was fiscally responsible.
    As you can see from the packet that we provided to your 
staff, for 2012, we spent 98 percent of our budget 
authorization. On the breakdown of actual spent, funds were put 
to sound use in the budget categories, and we responsibly 
returned a surplus of $157,000. So the past chairman was a good 
steward.
    In addition to being good stewards, we have an obligation 
to effectively carry out our committee's responsibilities. And 
key among those is oversight of the State Department and other 
government departments and agencies and the grant programs that 
are funded with taxpayers' money. So tens of billions of 
dollars are spent in these areas, and it is our job on this 
committee to make sure that it is all accounted for and that it 
is being spent judiciously. Following oversight, the committee 
plans on being extremely active legislatively, including 
producing bills to sanction Iran; and a bill to sanction North 
Korea; to reform the Broadcasting Board of Governors; to 
reauthorize the State Department; to increase our economic 
competitiveness by reforming export controls; and improve 
embassy security. Our investigative team continues to look at 
lessons learned from Benghazi. Unfortunately, there is no 
shortage of crises in the world demanding our attention.
    Field hearings are also important to the committee in terms 
of us meeting our responsibilities. Southern California is home 
of the Nation's largest Taiwanese American population. With the 
restart of U.S.-Taiwan trade negotiations, a field hearing to 
hear from this community on how to boost economic ties with 
Taiwan is particularly warranted. Seven committee members are 
from this area. And we plan on holding a similar field hearing 
in Florida to look at trade with Latin America.
    Another fact to consider is that we are a must stop in this 
Capitol for innumerable foreign officials, innumerable heads of 
state who come through here. And they want to come to the U.S. 
Congress and talk with committee members about U.S. relations 
with their home countries. We want to be there for them. And 
our leadership, frankly, expects us to be there to meet with 
them. And we recently hosted the U.N. Secretary General, an 
expense, but a worthwhile one here in this Capitol. Nearly 30 
of our members attended.
    So my concern is that with a potential loss of 11 percent 
of our 2013 funding, that would be over $900,000 in 2013 alone. 
We will not be able to carry out these responsibilities in the 
manner in which they should be carried out. Strong oversight 
requires high caliber staff, with experience in intelligence, 
law enforcement, and private sector fields. I have attracted 
such staff; one individual with extensive CIA field experience 
and another with time spent as a major investment bank--as an 
investigator. These individuals took pay cuts to join our 
staff. And I would like to be able to retain them and attract 
others.
    But the committee currently has six unfilled positions that 
we will not be able to fill if we were to absorb an 11 percent 
cut. Also, in anticipation of budget cuts in 2013, we 
eliminated a subcommittee, a reduction of three majority 
subcommittee staff positions in so doing, as well as an 
administrative staffer. So we are working to reduce costs and 
streamline our committee's organizational structure.
    I would also like to express my concern that the budget of 
this committee includes the salary and administrative expenses 
for the House Democracy Partnership, as well as the Tom Lantos 
Human Rights Commission. I believe that both of these entities 
should be funded independently. But for now, please account for 
the fact that our committee provides considerable support, 
funding, for these two groups.
    In conclusion, Member Engel and I are raring to go. We 
organized earlier than ever, have held several important 
hearings and last week introduced the Royce-Engel Nuclear Iran 
Prevention Act. We are asking you for the resources that we 
need to succeed.
    And I thank you, Madam Chairman, and I thank the ranking 
member as well.
    [The statement of Mr. Royce follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.057
    
    [GRAPHIC] [TIFF OMITTED] 80285A.058
    
    The Chairman. I thank the gentleman.
    And the chair now recognizes the ranking member, Mr. Engel.

   STATEMENT OF THE HON. ELIOT L. ENGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Engel. Thank you very much, Chairman Miller, Ranking 
Member Brady.
    Thank you for inviting me to testify. And I thank you for 
doing yeoman's work and listening to everybody testify. I want 
to enthusiastically endorse everything that Chairman Royce has 
said. I couldn't agree with him more. We are working together 
in a bipartisan manner. We both believe that foreign policy 
needs to be bipartisan wherever possible, and are working very 
hard to make it bipartisan in every way.
    Ed and I have already established a very good relationship. 
And I look forward to working with him as a friend and partner 
in the weeks and months ahead. So I endorse everything he had 
to say.
    As I said, I have always believed that foreign policy 
should be as bipartisan as possible. And we are working 
together to address a huge number of important and complicated 
issues, ranging from the Iranian and North Korean nuclear 
programs to the civil war in Syria, the conflict in Mali, 
Chinese hacking of our computer networks, the transition in 
Afghanistan, and the list goes on and on. I think that we and 
our staffs get a lot done for the good of the country and the 
world.
    But our ability to do that will be severely undermined if 
we have to absorb yet another round of significant cuts to the 
committee budget. Already, as the chairman pointed out, in the 
past 2 years, we faced budget cuts of 5 percent and 6.4 
percent. In each of those cuts, the Democratic staff was forced 
to take significant pay cuts. We also have three vacant staff 
slots that we aren't able to fill as a result.
    Mr. Engel. With the further budget cut of 11 percent, staff 
would be forced to take yet another substantial salary 
reduction, even larger than those in the past 2 years. This 
will obviously hurt morale and cause experienced staff to leave 
for the private sector and make it harder to attract new 
talent.
    But even more importantly, further cuts will make it 
virtually impossible for the committee to conduct effective 
oversight at the State Department, USAID and other Federal 
agencies under our jurisdiction. I think we can all agree in 
Congress, no matter what party we are from, that our committee 
has this important work to do, the oversight of the State 
Department, USAID and other Federal agencies.
    Among the other things, these cuts would undermine our 
ability to ensure that every reasonable step has been taken to 
guarantee the safety and security of our diplomats. At the end 
of the day, this lack of oversight will end up costing the 
taxpayers much more than they will save in any additional 
reductions to or budget.
    Madam Chair, and Mr. Ranking Member, I think sequestration 
is bad policy. I voted against it, and I continue to believe 
that indiscriminate, across-the-board cuts are a terrible and 
counterproductive way to deal with our fiscal situation. I 
understand the need to tighten our belts, just like millions of 
Americans have been forced to do.
    Over the past 2 years, our committee has done just that; we 
have cut through the fat and even the muscle, and now we are 
down to the bone. At this point, we are well beyond the point 
at which we can do more with less. If this happens, now we will 
have to just do less with less. And I would argue that bad for 
U.S. foreign policy and the prosperity and security of the 
American people.
    So, again, I thank you for inviting me to testify. I 
wholeheartedly agree with the chairman, and I hope you will 
take this under very serious consideration. Thank you.
    [The statement of Mr. Engel follows:]
    [GRAPHIC] [TIFF OMITTED] 80285A.059
    
    The Chairman. I want to thank both gentlemen for appearing 
before the committee. We have looked at what you submitted to 
the committee and will continue to evaluate it, as we do in the 
overall for everyone.
    One thing I guess I was not aware of, I am having the 
committee take a look at here, that the chairman pointed out, I 
did not realize the House Democracy Assistance Commission is 
actually under your budget as well as the Lantos Foundation. I 
am not sure how much that costs the committee. I don't know if 
you even know the answer to that right now. We are trying to 
look at it.
    Mr. Royce. We are providing staffing for that.
    The Chairman. Yes, that is a fantastic thing, but it could 
be quite labor intensive, I would think as well. I didn't 
realize it was part of your budget. I am not sure what we can 
do about that immediately, but it does seem like it ought to be 
able to be broken out or something, it seems like it should be 
recognized as something that you have absorbed there. Although 
there are a lot of kinds of services that House Admin or 
whatever the whole House really does provide when you do that, 
I mean, whether it is the Library of Congress for some of these 
emerging democracies, et cetera, services through the Library 
of Congress or some of the various things that would be an 
assist.
    But certainly, I don't know if I am asking you a question, 
but I am trying to absorb what you told me, and we will see 
what that means.
    I think what you have looked at as far as you mentioning 
some of these field hearings, I think those are very important 
things that you have identified.
    Mr. Royce. Yes.
    The Chairman. I would also say this, as early as today, I 
had a group in, some folks that were here for the AIPAC that 
talked about both of you gentlemen and how excited they are and 
the committee continuing a very bipartisan approach to some 
legislation that you mentioned that is coming out and how 
important it is with the challenges the entire planet is facing 
and how important it is your committee is taking a lead on some 
of those things. So I know you have incredible challenges this 
year.
    The only other thing I would say, again, I am not sure if 
it is a question or just something I want to throw out there 
for you that I mentioned in some of the other committees as 
well; this committee has a history of being on the leading edge 
of trying to have services that we can resource the various 
committees with and we really want to ratchet that up in 
various ways with utilizing new technologies, existing 
technologies, emerging technologies that can help the 
committee. I think you are already using the cloud computing, 
but we have some enterprise types of projects that we are 
trying to use. And I was just looking here, and I know that 
your committee actually switched to the House-provided Web site 
development just last month, so good.
    Mr. Royce. That is true, Madam Chairman.
    We are also moving to reduce printing costs by requiring 
members to use iPads to review hearing testimony and committee 
memos and suggested questions and so this will have enormous 
savings. You referenced the House Democracy Partnership and Tom 
Lantos Human Rights Commission. That share of our budget just 
for the salaries is $235,000 a year alone. So I appreciate you 
being sensitive to the fact that we do carry these additional 
costs for these additional purposes here within this budget and 
appreciate your consideration.
    The Chairman. I appreciate that. At this time, I would 
recognize the ranking member.
    Mr. Brady. Thank you, Madam Chair.
    And thank you, Mr. Chairman and ranking member, for 
appearing in front of us. My question is real quick; with the 
budgetary cuts, how much of a problem is it for you to be able 
to attract quality people to go to work for your committee? And 
how much does it affect you able to keep them working for your 
committee when you have people who come to work and, like you 
say and a lot of our chairman and ranking member say, that they 
do it because they have a passion and they want to be a public 
servant and want to help out. Well, that's all well and good 
but that gets old pretty quickly. And then not only can't you 
give them what they are worth or even give them a raise, now 
you are cutting their salary. So how hard is it to get quality 
people, and how hard is it to keep them?
    Mr. Royce. I think I can speak to that, because there is a 
tremendous feeling of patriotism--I am thinking for the moment 
about the individual with extensive CIA field experience, who 
came to work for us and took a pay cut to do it, because of the 
feeling she felt that these issues were so important, she 
wanted us to have her expertise. And indeed, to not be able to 
retain her, for example, would be a great loss to the 
committee.
    I think of the fellow who had the experience as an 
investigator with a major investment bank, who we are using on 
precisely the kinds of investigative work that this committee 
must succeed at, again, already taking a pay cut in order to 
take this job because it is important work he feels should be 
done for the United States, but at this point, those cuts have 
been implemented, and that is why we ask for your 
consideration. It is exactly the issue you raised. We want to 
make certain that those individuals who will make a sacrifice 
and come up here and work for reduced wage will stay with us. 
There is a question of how deeply we can cut.
    Mr. Engel. You know, obviously, as we said before, both Ed 
and I are new to being the leaders of our respective parties on 
the committee. My predecessor was Howard Berman, who, since I 
have been on the committee for many, many years, I watched his 
staff and was very pleased with the professionalism and how 
hard they work. I made a decision to basically keep his staff 
in tact because they do such an effective job and work for much 
less than they could easily get out--if they went to the public 
sector. And my worry would be that if some of them have to 
start leaving, which they will have to do having absorbed two 
cuts, then it is really going to be very difficult to retain 
them. And then, when you get new people, if you are going to 
get people that are going to be paid less, they are not going 
to be as experienced, and the whole committee will suffer at a 
time when the chairman and I are trying very hard in a 
bipartisan manner to do these kinds of oversight 
investigations, which is really what our committee does. This 
committee, probably almost more than any other committee, one 
of its very important purposes is to investigate the State 
Department and all the other agencies. If we lose the ability 
to retain good staff because of that, I think the committee 
work will be all that much poorer.
    Mr. Brady. And when you lose them, you also lose their 
knowledge.
    Mr. Engel. Definitely.
    Mr. Brady. Their institutional knowledge goes with it.
    Thank you.
    Mr. Engel. Thank you very much, both of you, thank you.
    Mr. Royce. Thank you.
    The Chairman. I am going to look into this, and I don't 
know if we can change it in the immediacy here, but I think 
your point about the various Democracy Assistance, et cetera, 
if you think about what is happening with our individual MRAs 
is whatever happens with the committees as well--I mean, the 
House, we took the 5 percent, and then we took the 6.4, and now 
we are taking 8.2, we are below 2008 levels. At the same time, 
the executive branch has actually expanded their spending by 
16.7 percent I think during that time.
    And I am only saying that in light of this particular 
thing. I think an argument could be made some of these salaries 
possibly could be paid for from the State Department budget, 
really. Would you have any comment on that, or you don't have 
to comment if you don't want to?
    Mr. Engel. No, I agree. And it is not only the executive 
branch; it is the Senate as well. If we don't have the ability 
to retain good staff because we can't pay them what they want 
to be paid, they will either gravitate to the private sector if 
they are just interested in making money, but if they want to 
stay in government, they will go to the Senate and to the White 
House. I think that leaves us all in the House of 
Representatives a lot poorer in more ways than one.
    The Chairman. Okay, gentlemen.
    We really appreciate your time and attention to the detail. 
We appreciate your answers to the questions. We will give 
everything serious consideration, and we appreciate it very 
much.
    Mr. Royce. Thank you.
    Mr. Engel. Thank you very much.
    The Chairman. At this time, we are going to recess our 
hearing, and the committee will reconvene tomorrow at the 
appointed time and will continue. Thank you.
    [Whereupon, at 4:29 p.m., the committee was adjourned.]

</pre></body></html>
